1a
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
--------------------------------

No. 17-3244
--------------------------------

JENNIFER SWEDA; BENJAMIN A. WIGGINS;
ROBERT L. YOUNG; FAITH PICKERING;
PUSHKAR SOHONI; REBECCA N. TONER,
individually and as representatives of a class
of participants and beneficiaries on behalf of
the University of Pennsylvania Matching Plan,
Appellants
v.
UNIVERSITY OF PENNSYLVANIA;
INVESTMENT COMMITTEE; JACK HEUER
--------------------------------

On Appeal from the United States District Court
For the Eastern District of Pennsylvania
(E.D. Pa. No. 2-16-cv-04329)
District Judge: Honorable Gene E.K. Pratter
--------------------------------

Argued October 2, 2018
Before: SCHWARTZ, ROTH,
and FISHER, Circuit Judges.
(Opinion Filed: May 2, 2019)

2a
Jerome J. Schlichter
Sean E. Soyars
Kurt C. Struckhoff
Michael A. Wolff [ARGUED]
Schlichter Bogard & Denton
100 South 4th Street, Suite 1200
St. Louis, MO 63102
Counsel for Appellants
Brian T. Ortelere [ARGUED]
Morgan Lewis & Bockius
1701 Market Street
Philadelphia, PA 19103
Christopher J. Boran
Matthew A. Russell
Morgan Lewis & Bockius
77 West Wacker Drive
Chicago, IL 60601
Michael E. Kenneally
Morgan Lewis & Bockius
1111 Pennsylvania Avenue, N.W.
Suite 800 North
Washington, DC 20004
Counsel for Appellees
Brian T. Burgess
Jaime A. Santos
Goodwin Procter
901 New York Avenue, NW
Suite 900 East
Washington, DC 20001
Alison V. Douglass
James O. Fleckner
Goodwin Procter
100 Northern Avenue
Boston, MA 02210
Counsel for Chamber of Commerce of The United
States of America and American Beneﬁts Council,
Amicus Appellees

3a
Brian D. Netter
Mayer Brown
1999 K Street, N.W.
Washington, DC 20006
Counsel for American Association of State Colleges
and Universities, American Council on Education,
Association of American Universities, Association of
Community College Trustees, Association of Public
and Land-Grant Universities, College and University
Professional Association For Human Resources, Council
of Independent Colleges, National Association of
Independent Colleges and Universities, Amicus Appellees
Lori A. Martin
WilmerHale
7 World Trade Center
250 Greenwich Street
New York, NY 10007
Seth P. Waxman
Paul R. Wolfson
WilmerHale
1875 Pennsylvania Avenue, N.W.
Washington, DC 20006
Counsel for Teachers Insurance & Annuity
Association of America, Amicus Appellee
--------------------------------

OPINION OF THE COURT
--------------------------------

FISHER, Circuit Judge.
Plaintiffs Jennifer Sweda, Benjamin Wiggins, Robert
Young, Faith Pickering, Pushkar Sohoni, and Rebecca
Toner, representing a class of participants in the University

4a
of Pennsylvania’s 403(b) deﬁned contribution, individual account, employee pension beneﬁt plan, sued
Defendants, the University of Pennsylvania and its
appointed ﬁduciaries, for breach of ﬁduciary duty, prohibited transactions, and failure to monitor ﬁduciaries
under the Employee Retirement Income Security Act
(ERISA), 29 U.S.C. §§ 1001-1461. Plaintiffs (collectively, “Sweda”) alleged that Defendants (collectively,
“Penn”), among other things, failed to use prudent
and loyal decision making processes regarding investments and administration, overpaid certain fees by
up to 600%, and failed to remove underperforming options from the retirement plan’s offerings. The District
Court dismissed Sweda’s complaint in its entirety. We
will reverse the District Court’s dismissal of the breach
of ﬁduciary duty claims at Counts III and V only and
remand for further proceedings.
I.
Sweda and her fellow Plaintiffs-Appellants are
current and former Penn employees who participate,
or participated, in Penn’s retirement plan (the “Plan”).
They sought to represent the proposed class of Plan
participants, 20,000 current and former Penn employees who had participated in the Plan since August 10,
2010. The Defendants are the University of Pennsylvania, its Investment Committee, and Jack Heuer, the
University’s Vice President of Human Resources. The
Plan is a deﬁned contribution plan under 29 U.S.C.
§ 1002(34), tax qualiﬁed under 26 U.S.C. § 403(b). The

5a
University matches employees’ contributions up to 5%
of compensation.
As a 403(b), the Plan offers mutual funds and annuities: the former through TIAA-CREF and Vanguard
Group, Inc. and the latter through TIAA-CREF. Since
2010, the Plan has offered as many as 118 investment
options. As of December 2014, the Plan offered 78 options: 48 Vanguard mutual funds, and 30 TIAA-CREF
options including mutual funds, ﬁxed and variable annuities, and an insurance company separate account.
Effective October 19, 2012, Penn organized its investment fund lineup into four tiers. The TIAA-CREF and
Vanguard options under Tier 1 consisted of lifecycle or
target-date funds for the “Do-it-for-me” investor. Certain core funds were designated Tier 2, designed for
the “Help-me-do-it” investor looking to be involved in
his or her investment choices without having to decide
among too many options. Under Tier 3, the Plan offered
an “expanded menu of funds” for “the more advanced
‘mix-my-own’ investor,” and under Tier 4, the Plan offered the option of a brokerage account window for the
“self-directed” investor looking for additional options,
subject to additional fees. Plan participants thereafter
could “select a combination of funds from any or all of
the investment tiers.” At the end of 2014, the Plan had
$3.8 billion in assets: $2.5 billion invested in TIAACREF options, and $1.3 billion invested in Vanguard
options.
TIAA-CREF and Vanguard charge investment and
administrative (recordkeeping) fees. Mutual fund investment fees are charged as a percentage of a fund’s

6a
managed assets, known as the expense ratio, and the
rate can differ by share class. The mutual funds in
which the Plan invests have two share classes: retail
and institutional. Retail class shares generally have
higher investment fees than institutional class shares.
There are also two common recordkeeping fee models.
In a ﬂat fee model, recordkeeping fees are a set amount
per participant, whereas in a revenue sharing model,
part of an option’s expense ratio is diverted to administrative service providers. TIAA-CREF and Vanguard
charged the Plan under the revenue sharing model.
Sweda alleged numerous breaches of ﬁduciary
duty and prohibited transactions. She brought six
counts against all Defendants, and one count against
the University. The ﬁrst six counts alleged breaches of
ﬁduciary duty in violation of 29 U.S.C. § 1104(a)(1)
(Counts I, III, and V) and prohibited transactions in violation of 29 U.S.C. § 1106(a)(1) (Counts II, IV, and VI).
Sweda also alleged that the University failed to adequately monitor its appointed ﬁduciaries in Count VII.
Penn moved to dismiss the complaint, and the District Court granted the motion. The court determined
that Sweda failed to state a claim for ﬁduciary breach
under Bell Atl. Corp. v. Twombly, 550 U.S. 544 (2007)
and Renfro v. Unisys Corp., 671 F.3d 314 (3d Cir. 2011),
because her factual allegations could also indicate rational conduct. As for the prohibited transaction claims,
the court held that the service agreements could not
constitute prohibited transactions without an allegation that Penn had the subjective intent to beneﬁt a
party in interest. The court dismissed Count VII after

7a
determining that it was duplicative of the claims at
Counts I, III, and V.1 Sweda now appeals.
II.
The District Court had jurisdiction under 28
U.S.C. § 1331 and 29 U.S.C. § 1132(e)(1) and (f ). We
have jurisdiction under 28 U.S.C. § 1291. We conduct
plenary review of an order granting a motion to dismiss for failure to state a claim under Federal Rule of
Civil Procedure (12)(b)(6). Renfro, 671 F.3d at 320;
Burtch v. Milberg Factors, Inc., 662 F.3d 212, 220 (3d
Cir. 2011).
III.
A. Pleadings standards for claims brought under
ERISA
The question in this case is whether Sweda stated
a claim that should survive termination at the earliest
stage in litigation. When a court grants a motion to dismiss a complaint under Rule 12(b)(6), it deprives a
plaintiff of the beneﬁt of the court’s adjudication of the
merits of its claim before the court considers any evidence. That is why, in exercising our plenary review, we
apply the same standard as the district court and construe the complaint “in the light most favorable to the
1

Sweda does not address the District Court’s dismissal of
Count VII in her opening brief. Therefore, the District Court’s dismissal of Count VII is not before us on appeal. Barna v. Bd. of
Sch. Dir. of the Panther Valley Sch. Dist., 877 F.3d 136, 145 (3d
Cir. 2017).

8a
plaintiff,” Santomenno ex rel. John Hancock Tr. v. John
Hancock Life Ins. Co., 768 F.3d 284, 290 (3d Cir. 2014)
(citation and internal quotation marks omitted), to determine whether it “contain[s] sufﬁcient factual matter, accepted as true, to ‘state a claim to relief that is
plausible on its face,’ ” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S.
544, 570 (2007)). “[W]e disregard rote recitals of the elements of a cause of action, legal conclusions, and mere
conclusory statements.” James v. City of Wilkes-Barre,
700 F.3d 675, 679 (3d Cir. 2012). A claim “has facial
plausibility when the pleaded factual content allows
the court to draw the reasonable inference that the defendant is liable for the misconduct alleged.” Thompson v. Real Estate Mortg. Network, 748 F.3d 142, 147
(3d Cir. 2014) (citation and internal quotation marks
omitted).
Here, the District Court held that Sweda’s complaint did not state a plausible claim, observing at various points in its memorandum that “[a]s in Twombly,
the actions are at least ‘just as much in line with a wide
swath of rational and competitive business strategy’ in
the market as they are with a ﬁduciary breach.” Sweda
v. Univ. of Pennsylvania, No. CV 16-4329, 2017 WL
4179752, at *7, 8 (E.D. Pa. Sept. 21, 2017) (quoting
Twombly, 550 U.S. at 554). However, Twombly’s discussion of alleged misconduct that is “just as much in line
with a wide swath of rational and competitive business
strategy” is speciﬁc to antitrust cases. 550 U.S. at 554.
In an antitrust case, “a conclusory allegation of agreement at some unidentiﬁed point does not supply facts

9a
adequate to show illegality,” therefore “when allegations of parallel conduct are set out in order to make a
§ 1 claim, they must be placed in a context that raises
a suggestion of a preceding agreement, not merely parallel conduct that could just as well be independent action.” Id. at 557.
One of our sister circuits has declined to extend
Twombly’s antitrust pleading rule to breach of ﬁduciary duty claims under ERISA because “[r]equiring a
plaintiff to rule out every possible lawful explanation
for the conduct he challenges would invert the principle that the complaint is construed most favorably to
the nonmoving party.” Braden v. Wal-Mart Stores, Inc.,
588 F.3d 585, 597 (8th Cir. 2009) (citation and internal
quotation marks omitted). We agree, and decline to extend Twombly’s antitrust pleading rule to such claims.
To the extent that the District Court required Sweda
to rule out lawful explanations for Penn’s conduct, it
erred.
We now turn to the task of evaluating Sweda’s
complaint. We progress in three steps: First, we will
note the elements of a claim; second, we will identify
allegations that are conclusory and therefore not assumed to be true, and; third, accepting the factual allegations as true, we will view them and reasonable
inferences drawn from them in the light most favorable to Sweda to decide whether “they plausibly give
rise to an entitlement to relief.” Connelly v. Lane Constr. Corp., 809 F.3d 780, 787 (3d Cir. 2016) (quoting

10a
Iqbal, 556 U.S. at 679).2 Pleadings that establish only
a mere possibility of misconduct do not show entitlement to relief. Fowler, 578 F.3d at 211.
In our evaluation of the complaint, we must account for the fact that Rule 8(a)(2), Twombly, and Iqbal
operate with contextual speciﬁcity. Renfro, 671 F.3d at
321 (“[W]e must examine the context of a claim, including the underlying substantive law, in order to assess
its plausibility.”). Therefore, ERISA’s purpose informs
our assessment of Sweda’s pleadings. ERISA’s protective function is the focal point of the statute. The statute plainly states that ERISA is a response to “the lack
of employee information and adequate safeguards concerning [employee beneﬁt plans’] operation,” and adds
that ERISA reﬂects Congress’s desire “that disclosure
be made and safeguards be provided with respect to
the establishment, operation, and administration of
such plans.” 29 U.S.C. § 1001(a). This Court has repeatedly acknowledged and afﬁrmed ERISA’s protective
function. See e.g. McCann v. Unum Provident, 907 F.3d
130, 143 (3d Cir. 2018); Edmonson v. Lincoln Nat’l Life
Ins. Co., 725 F.3d 406, 413 (3d Cir. 2013); Nat’l Sec. Sys.,
Inc. v. Iola, 700 F.3d 65, 81 (3d Cir. 2012). ERISA furthers “the national public interest in safeguarding anticipated employee beneﬁts” upon which individuals’
2

We have also described this as a two-step analysis, but the
task is the same. See Fowler v. UPMC Shadyside, 578 F.3d 203,
210-11 (3d Cir. 2009) (the court (1) separates factual and legal
elements of a claim and takes the well-pleaded factual allegations
as true, and (2) determines whether those facts state a plausible
claim for relief ).

11a
livelihoods depend. Cutaiar v. Marshall, 590 F.2d 523,
529 (3d Cir. 1979).
ERISA also “represents a careful balancing between ensuring fair and prompt enforcement of rights
under a plan and the encouragement of the creation of
such plans.” Fifth Third Bancorp v. Dudenhoeffer, 134
S. Ct. 2459, 2470 (2014) (citations and internal quotation marks omitted); In re Unisys Sav. Plan Litig., 74
F.3d 420, 434 (3d Cir. 1996) (ERISA “protect[s] and
strengthen[s] the rights of employees” and “encourage[s] the development of private retirement plans.”).
Plan sponsors and ﬁduciaries have reliance interests
in the courts’ interpretation of ERISA when establishing plan management practices. ERISA “ ‘induc[es] employers to offer beneﬁts by assuring a predictable set
of liabilities.’ ” Renfro, 671 F.3d at 321 (quoting Rush
Prudential HMO, Inc. v. Moran, 536 U.S. 355, 379
(2002)). Both pursuits—participant protection and plan
creation—are important considerations at the pleadings stage.
Two sections of the statute are particularly important to this appeal: the section outlining ﬁduciary
duties, 29 U.S.C. § 1104, and the section prohibiting
certain transactions, id. § 1106. Under § 1104(a), ﬁduciaries are held to the prudent man standard of care,3
which is drawn from trust law. Tibble v. Edison Int’l
(Tibble III), 135 S. Ct. 1823, 1828 (2015); In re Unisys,
3

The duties in § 1104(a) fully apply to all ﬁduciaries except
ﬁduciaries of Employee Stock Ownership Plans (ESOPs). Fifth
Third Bancorp, 134 S. Ct. at 2467. Neither ESOPs nor the ﬁduciary duties accompanying them are at issue in this case.

12a
74 F.3d at 434 (“Congress has instructed that section
1104 ‘in essence, codiﬁes and makes applicable to . . .
ﬁduciaries certain principles developed in the evolution of the law of trusts.’ ”) (quoting S. Rep. No. 127, 93
Cong., 2d Sess. (1974)). Section 1104(a) lays the foundation of ﬁduciary duty, and § 1106(a) “[s]upplement[s]
that foundational obligation” by “erect[ing] a categorical bar to transactions between the plan and a ‘party
in interest’ deemed likely to injure the plan.” Nat’l Sec.
Sys., Inc., 700 F.3d at 82.
The standards for ﬁduciary conduct in §§ 1104 and
1106 may overlap. When evaluating whether there has
been a breach of ﬁduciary duties under § 1104, courts
may consider the administrator’s need to “defray[ ] reasonable expenses of administering [a] plan.” 29 U.S.C.
§ 1104(a)(1)(A)(ii). A prohibited transactions claim under § 1106 might also involve expense-related transactions between a plan and party in interest. Id.
§ 1106(a)(1)(C). Despite the overlap, a ﬁduciary who
breaches the duties under § 1104(a) does not necessarily violate § 1106(a). Because Sweda alleged that
Penn breached its ﬁduciary duties and caused the Plan
to engage in prohibited transactions, we will ﬁrst address claims under § 1104(a)(1) (Counts I, III, and V),
and then address her claims under § 1106(a)(1) (Counts
II, IV, and VI).

13a
B. Section 1104(a)(1) claims (Counts I, III, and V)
1. Elements of a claim under § 1104(a)(1)
In reviewing the District Court’s dismissal of
Sweda’s ﬁduciary breach claims, our ﬁrst task is to
identify the elements of such a claim. They are: “(1) a
plan ﬁduciary (2) breaches an ERISA-imposed duty
(3) causing a loss to the plan.” Leckey v. Stefano, 501
F.3d 212, 225–26 (3d Cir. 2007), as amended (Dec. 21,
2007). Because the parties do not dispute that Penn is
a ﬁduciary or whether loss was adequately alleged, our
focus is whether Sweda adequately alleged that Penn
breached its ﬁduciary duties. A ﬁduciary must “discharge his duties with respect to a plan solely in the
interest of the participants and beneﬁciaries . . . for the
exclusive purpose of . . . providing beneﬁts to participants and their beneﬁciaries; and . . . defraying reasonable expenses of administering the plan.” 29 U.S.C.
§ 1104(a)(1), (a)(1)(A). As explained above, ﬁduciaries
are held to the “prudent man” standard of care, which
requires ﬁduciaries to exercise “the care, skill, prudence, and diligence under the circumstances then prevailing that a prudent man acting in a like capacity
and familiar with such matters would use in the conduct of an enterprise of a like character and with like
aims.” Id. § 1104(a)(1)(B). Fiduciaries are also required
to diversify investments unless it would be imprudent,4 and to administer the plan according to governing documents and instruments. Id. § 1104(a)(1)(C),
4

ESOP ﬁduciaries are exempted from the general duty to diversify. Fifth Third Bancorp, 134 S. Ct. at 2467.

14a
(D). Fiduciaries are personally liable for losses due to
breach. Id. § 1109(a).
A ﬁduciary must prudently select investments,
and failure to “monitor . . . investments and remove imprudent ones” may constitute a breach. See Tibble III,
135 S. Ct. at 1828-29; see also 29 C.F.R. § 2550.404a1(b)(1)(i) (fiduciaries must give “appropriate consideration to those facts and circumstances that . . . the
ﬁduciary knows or should know are relevant to the
particular investment or investment course of action
involved”); see also Fink v. Nat’l Sav. & Trust Co., 772
F.2d 951, 957 (D.C. Cir. 1985) (“investigation of the
merits of a particular investment is at the heart of the
prudent person standard”). Fiduciaries must also understand and monitor plan expenses. “Expenses, such
as management or administrative fees, can sometimes
signiﬁcantly reduce the value of an account in a deﬁned-contribution plan,” Tibble III, 135 S. Ct. at 1826,
by decreasing its immediate value, and by depriving
the participant of the prospective value of funds that
would have continued to grow if not taken out in fees.
Recognizing the substantial impact of a ﬁduciary’s
choice among fee options, the Ninth Circuit, in Tibble
v. Edison Int’l (Tibble II), afﬁrmed the district court’s
ﬁnding that the plan ﬁduciary’s inclusion of retail class
shares of three funds when institutional class shares
of the same funds were available for 24 to 40 fewer basis points, was a ﬁduciary breach. 729 F.3d 1110, 113739 (9th Cir. 2013), vacated on other grounds, 135 S. Ct.
1823 (2015).

15a
Cognizant of the impact of fees on Plan value, ﬁduciaries should be vigilant in “negotiation of the speciﬁc formula and methodology” by which fee payments
such as “revenue sharing will be credited to the plan
and paid back to the plan or to plan service providers.”
DOL Advisory Opinion 2013-03A, 2013 WL 3546834,
at *4.5 Fiduciaries must also consider a plan’s “power
. . . to obtain favorable investment products, particularly when those products are substantially identical—
other than their lower cost—to products the trustee
has already selected.” Tibble v. Edison Int’l (Tibble IV),
843 F.3d 1187, 1198 (9th Cir. 2016). See Tibble II, 729
F.3d at 1137 n.24 (common knowledge that investment
minimums are often waived for large plans). When expenses are paid from plan assets, ﬁduciaries must ensure that the assets are used “for the exclusive purpose
of providing beneﬁts to participants and beneﬁciaries
and defraying reasonable expenses of administering
5

Under ERISA Procedure 76-1 § 10, only the parties described in a request for a DOL advisory opinion may rely on the
opinion, and only to the extent that the problem is fully and accurately described in the request. Advisory Op. Procedure, 41 Fed.
Reg. 36281-02 (August 27, 1976). The opinions do not have precedential effect. “Because of the nature and limitations of these
rulings,” the Supreme Court declined to “express [a] view as to
whether they are or are not entitled to deference” in Comm’r v.
Keystone Consol. Indus., Inc., 508 U.S. 152, 162 n.3 (1993). Such
advisory opinions are likely “entitled to respect” to the extent that
they have the “power to persuade” under the Supreme Court’s decision in Skidmore v. Swift & Co., 323 U.S. 134, 140 (1944). Christensen v. Harris Cty., 529 U.S. 576, 587 (2000) (citations omitted).
See e.g. Caremark, Inc. v. Goetz, 480 F.3d 779, 790 (6th Cir. 2007)
(deference to DOL advisory opinion was warranted because of the
opinion’s persuasive force and its consistency with federal and
state law and regulations).

16a
the plan.” DOL Advisory Opinion 2001-01A, 2001 WL
125092, at *1. See 29 U.S.C. § 1104(a)(1)(A).
Bearing these ﬁduciary duties in mind, a court assesses a ﬁduciary’s performance by looking at process
rather than results, “focusing on a ﬁduciary’s conduct
in arriving at [a] . . . decision . . . and asking whether a
ﬁduciary employed the appropriate methods to investigate and determine the merits of a particular investment.” In re Unisys, 74 F.3d at 434 (citations omitted).
A ﬁduciary’s process must bear the marks of loyalty,
skill, and diligence expected of an expert in the ﬁeld. It
is not enough to avoid misconduct, kickback schemes,
and bad-faith dealings. The law expects more than
good intentions. “[A] pure heart and an empty head are
not enough.” DiFelice v. U.S. Airways, Inc., 497 F.3d 410,
418 (4th Cir. 2007) (quoting Donovan v. Cunningham,
716 F.2d 1455, 1467 (5th Cir. 1983)). Many allegations
concerning ﬁduciary conduct, such as reasonableness
of “compensation for services” are “inherently factual
question[s]” for which neither ERISA nor the Department of Labor give speciﬁc guidance. DOL Advisory
Opinion 2013-03A, 2013 WL 3546834, at *4-5.
In Renfro, we established the pleading standard
for breach of ﬁduciary duty under ERISA after examining the reasoning of other Circuits that had addressed the issue in light of Twombly and Iqbal,
particularly Hecker v. Deere & Co., 556 F.3d 575 (7th
Cir. 2009), and Braden v. Wal–Mart Stores, Inc., 588
F.3d 585 (8th Cir. 2009). The Renfro plaintiffs challenged the mix and range of investment options in
their retirement plan, the use of asset-based rather

17a
than per-participant fees, and the alleged imbalance of
the fees charged and services rendered. 671 F.3d at
326. The district court granted defendants’ motion to
dismiss, holding that “the plan offered a sufﬁcient mix
of investments . . . [such] that no rational trier of fact
could ﬁnd, on the basis of the facts alleged in the operative complaint, that the . . . defendants breached an
ERISA ﬁduciary duty by offering [that] particular array of investment vehicles.” Id. at 320 (citations and
internal quotation marks omitted).
We afﬁrmed. Id. at 327-28. We determined that
we could not “infer from what [was] alleged that the
[ﬁduciary’s] process was ﬂawed.” Id. at 327 (quoting
Braden, 588 F.3d at 596). We held that ERISA plans
should offer meaningful choices to their participants,
and that:
[T]he range of investment options and the
characteristics of those included options—including the risk proﬁles, investment strategies, and associated fees—are highly relevant
and readily ascertainable facts against which
the plausibility of claims challenging the overall composition of a plan’s mix and range of
investment options should be measured.
Id. We explained that a ﬁduciary breach claim must be
examined against the backdrop of the mix and range
of available investment options. Id. We did not hold,
however, that a meaningful mix and range of investment options insulates plan ﬁduciaries from liability
for breach of ﬁduciary duty. Such a standard would allow a ﬁduciary to avoid liability by stocking a plan with

18a
hundreds of options, even if the majority were overpriced or underperforming. One important reason why
we cannot read Renfro to establish such a bright-line
rule (that providing a range of investment options
satisﬁes a ﬁduciary’s duty) is that ERISA ﬁduciaries
have a duty to act prudently according to current practices—as the statute puts it, the “circumstances then
prevailing.” 29 U.S.C. § 1104(a)(1)(B). Practices change
over time, and bright line rules would hinder courts’
evaluation of ﬁduciaries’ performance against contemporary industry practices. Bearing these things
in mind, we turn to Sweda’s complaint to determine
whether she adequately alleged ﬁduciary breach in
Counts I, III, and V.
2. Conclusory allegations of fiduciary breach
First, we must eliminate conclusory allegations
from the complaint. Connelly, 809 F.3d at 787. Sweda
included a few conclusory allegations, such as “a prudent process would have produced a different outcome,” Am. Compl. ¶75, but conclusory statements of
that variety are rare in the complaint, and after discarding them, many well-pleaded factual allegations
remain.
3. Well-pleaded facts alleging breach of fiduciary duty
Sweda alleged that Penn was “responsible for hiring administrative service providers, such as a recordkeeper, and negotiating and approving those service

19a
providers’ compensation.” Am. Compl. ¶36. She also
alleged that Penn was responsible for the menu of investment options available to participants. Id. In Count
I, she alleged that Penn entered a “lock-in” agreement
with TIAA-CREF that mandated inclusion of the CREF
Stock and Money Market accounts, and required the
Plan to use TIAA-CREF as a recordkeeper. Am. Compl.
¶86.
In Count III, Sweda alleged that Penn paid excessive administrative fees, failed to solicit bids from
service providers, failed to monitor revenue sharing,
failed to leverage the Plan’s size to obtain lower fees or
rebates, and failed to comprehensively review Plan
management. Speciﬁcally, Sweda alleged that the Plan
paid between $4.5 and $5.5 million in annual recordkeeping fees at a time when similar plans paid
$700,000 to $750,000 for the same services. Sweda also
alleged that percentage-based fees went up as assets
grew, despite there being no corresponding increase in
recordkeeping services. Sweda alleged that Penn could
have negotiated for a cap on fees or renegotiated the
fee structure, but failed to do either. Sweda also alleged
that Penn could have assessed the reasonableness of
Plan recordkeeping fees by soliciting competitive bids,
but, unlike prudent ﬁduciaries, failed to do so. For contrast, Sweda offered examples of similarly situated ﬁduciaries who acted prudently, such as ﬁduciaries at
Loyola Marymount who hired an independent consultant to request recordkeeping proposals and consolidated services with a single provider. Sweda pointed to
similar moves at Pepperdine, Purdue, and CalTech, as

20a
well as Caltech’s negotiation for $15 million in revenue
sharing rebates. Sweda alleged that unlike those organizations, Penn failed to review Plan management,
and fell behind other ﬁduciaries in the industry.
In Count V, Sweda alleged that Penn breached its
ﬁduciary duties by: paying unreasonable investment
fees, including and retaining high-cost investment options with historically poor performance compared to
available alternatives, and retaining multiple options
in the same asset class and investment style. Speciﬁcally, Sweda alleged that despite the availability of
low-cost institutional class shares, Penn selected and
retained identically managed but higher cost retail
class shares. She included a table comparing options in
the Plan with the readily available cheaper alternatives.6 Sweda also alleged that some options in the
6

Most of the investment options Sweda criticized in her complaint were designated as Tier 3 and Tier 4 options. Sweda also
criticized Tier 2 options such as the TIAA-CREF International
Equity Index Fund, listed in Sweda’s table comparing Plan options with their “lower-cost, but otherwise identical” alternatives.
Sweda conﬁrmed that criticized options fell under Tiers 2, 3, and
4 at oral argument. Oral Arg. at 7:33. At this time we do not address whether Penn may be able to assert a defense to liability
under 29 U.S.C. § 1104(c) due to participants’ self-directed investing activity. The § 1104(c) safe harbor defense is an afﬁrmative
defense and therefore it is generally not part of a court’s consideration of a motion to dismiss under Rule 12(b)(6), except where
the defense has been anticipated by a plaintiff ’s complaint.
Hecker, 556 F.3d at 588 (citing In re Unisys, 74 F.3d at 446 for the
classiﬁcation of § 1104(c) as an afﬁrmative defense). Unlike the
plaintiffs in Hecker who explicitly and “thoroughly anticipated”
the safe harbor defense, Sweda did not “put it in play” at the
pleadings stage. Id.

21a
line-up had layers of unnecessary fees. Not only did
Sweda allege that the options Penn selected and retained were imprudently costly, she also alleged that
they were duplicative thereby decreasing the value of
actively managed funds, reducing the Plan’s leverage,
and confusing participants. Sweda also alleged that
60% of Plan options underperformed appropriate benchmarks, and that Penn failed to remove underperformers. Sweda pointed to the CREF Stock Account and
TIAA Real Estate Account as examples of consistent
underperformers. She alleged that Penn’s process of
selecting and managing options must have been ﬂawed
if Penn retained expensive underperformers over better performing, cheaper alternatives. At this stage, her
factual allegations must be taken as true, and every
reasonable inference from them must be drawn in her
favor. Connelly, 809 F.3d at 790.
4. Sweda plausibly stated a claim in Counts III
and V
At this ﬁnal step, we employ a holistic approach,
considering all of Sweda’s well-pleaded factual allegations including the range of investment options alongside other germane factors such as reasonableness of
fees, selection and retention of investment options, and
practices of similarly situated ﬁduciaries, to determine
whether her allegations plausibly demonstrate entitlement to relief. See Renfro, 671 F.3d at 327; see also
Braden, 588 F.3d at 598 (statute’s remedial scheme
“counsel[s] careful and holistic evaluation of an ERISA
complaint’s factual allegations before concluding that

22a
they do not support a plausible inference that the
plaintiff is entitled to relief.”). The complaint should
not be “parsed piece by piece to determine whether
each allegation, in isolation, is plausible.” Braden, 588
F.3d at 594. See Tatum v. RJR Pension Inv. Comm., 761
F.3d 346, 360 (4th Cir. 2014) (citing DiFelice, 497 F.3d
at 420) (courts must look to the totality of the circumstances to assess the prudence of investment decisions).
Sweda plausibly alleged breach of ﬁduciary duty.
Sweda’s factual allegations are not merely “unadorned,
the-defendant-unlawfully-harmed-me accusation[s].” Iqbal, 556 U.S. at 678. As recounted above, they are numerous and speciﬁc factual allegations that Penn did
not perform its ﬁduciary duties with the level of care,
skill, prudence, and diligence to which Plan participants are statutorily entitled under § 1104(a)(1). Sweda
offered speciﬁc comparisons between returns on Plan
investment options and readily available alternatives,
as well as practices of similarly situated ﬁduciaries to
show what plan administrators “acting in a like capacity and familiar with such matters would [do] in the
conduct of an enterprise of a like character and with
like aims.” 29 U.S.C. § 1104(a)(1)(B).7 The allegations
7

Sweda also directly compared fees on options included in
the Plan with readily available lower-cost options. The dissent
suggests that because the range of fees on options included in the
Plan is lower than the range of challenged fees in Renfro, Sweda
needed to allege a change in market circumstances since Renfro
was decided to state a plausible claim. In making that suggestion,
the dissent misses the object of our inquiry, that is, Penn’s “conduct in arriving at an investment decision.” In re Unisys, 74 F.3d

23a
plausibly allege that Penn failed to “defray[ ] reasonable expenses of administering the plan” and otherwise failed to “discharge [its] duties” according to the
prudent man standard of care. Id. § 1104(a)(1)(A)(ii)
and (B).
Other appellate courts have found that similar
conduct plausibly indicates breach of fiduciary duty. For
instance, in Tussey v. ABB, Inc., the Eighth Circuit held
that the district court did not err in ﬁnding ﬁduciaries
breached their duties by “[failing to] (1) calculate the
amount the Plan was paying [the recordkeeper] for
recordkeeping through revenue sharing, (2) determine
whether [the recordkeeper’s] pricing was competitive,
[or] (3) adequately leverage the Plan’s size to reduce
fees,” among other things. 746 F.3d 327, 336 (8th Cir.
2014). In Tibble IV, the Ninth Circuit held that whether
a ﬁduciary breached its ﬁduciary duties by selecting a
higher cost share class was an issue requiring development by the district court, and remanded the case for
further proceedings. 843 F.3d at 1197-98.
In dismissing the claims in Counts III and V, the
District Court erred by “ignor[ing] reasonable inferences supported by the facts alleged,” and by drawing
“inferences in [Defendants’] favor, faulting [Plaintiffs]
for failing to plead facts tending to contradict those inferences.” Braden, 588 F.3d at 595. While Sweda may
at 434 (citations omitted). To that end, the allegations in Sweda’s
complaint show that Penn frequently selected higher cost investments when identical lower-cost investments were available. This
is one of many allegations that, together, plausibly allege that
Penn breached its ﬁduciary duty.

24a
not have directly alleged how Penn mismanaged the
Plan, she provided substantial circumstantial evidence
from which the District Court could “reasonably infer”
that a breach had occurred. Pension Beneﬁt Guar. Corp.
ex rel. St. Vincent Catholic Med. Ctrs. Ret. Plan v. Morgan Stanley Inv. Mgmt. Inc., 712 F.3d 705, 718 (2d Cir.
2013) (citation and internal quotation marks omitted).
Based on her allegations, the claims in Counts III and
V should not have been dismissed.
Penn argues that allowing Sweda to proceed on
this complaint ignores ﬁduciary discretion, and also argues that it in fact employed a prudent process in its
Plan management. Finally, Penn argues that reversal
would overexpose ERISA ﬁduciaries to liability. According to Penn, ERISA ﬁduciaries are “afforded a
healthy measure of discretion in deciding what is in
the plan participants’ interests.” Br. of Appellees at 2.
At oral argument, Penn emphasized ﬁduciary discretion, calling it the “hallmark of ﬁduciary activity.” Oral
Arg. at 25:05. Penn is not incorrect that the exercise
of discretionary authority over plan assets is a characteristic of ﬁduciaries such that courts can identify
ﬁduciaries by this trait, see Pohl v. Nat’l Beneﬁts Consultants, Inc., 956 F.2d 126, 129 (7th Cir. 1992), nor is
Penn incorrect that discretion is an important aspect
of ﬁduciary behavior that the courts should consider in
evaluating ﬁduciary performance. ERISA ﬁduciaries,
like trustees, are afforded discretion because “[t]here
are no universally accepted and enduring theories of
ﬁnancial markets or prescriptions for investment that
can provide clear and speciﬁc guidance,” therefore

25a
“[v]aried approaches to the prudent investment” of assets are permissible. Restatement (Third) of Trusts
§ 90 (2007), cmt. f.
However, while ﬁduciaries have discretion in plan
management, that discretion is bounded by the prudent man standard. Discretion “does not mean . . . that
the legal standard of prudence is without substantive
content or that there are no principles by which the
ﬁduciary’s conduct may be guided and judged,” rather
a ﬁduciary’s conduct at all times “must be reasonably
supported in concept and must be implemented with
proper care, skill, and caution.” Id. Fiduciary discretion
must be exercised within the statutory parameters of
prudence and loyalty. See DOL Advisory Op. 2006-08A,
2006 WL 2990326, at *3. Those parameters impose a
ﬁduciary standard that is considered “the highest
known to the law.” Tatum, 761 F.3d at 355–56 (quoting
Donovan v. Bierwirth, 680 F.2d 263, 272 n.8 (2d Cir.
1982)). See Varity Corp. v. Howe, 516 U.S. 489, 497
(1996) (ERISA ﬁduciary duty may even exceed ﬁduciary duty as derived from the common law of trusts).
Therefore, while we recognize and appreciate ﬁduciary
discretion, if there is indeed a “hallmark” of ﬁduciary
activity identiﬁed in the statute, it is prudence. See 29
U.S.C. § 1104(a).
As to Penn’s second argument, that it did in fact
employ a prudent process, this argument goes to the
merits and is misplaced at this early stage. Although
Penn may be able to demonstrate that its process was
prudent, we are not permitted to accept Penn’s account
of the facts or draw inferences in Penn’s favor at this

26a
stage of litigation. Finally, we address Penn’s argument,
supported by amici including the American Council
on Education and the Chamber of Commerce of the
United States of America8, that allowing Sweda’s complaint through the 12(b)(6) gate will overexpose plan
sponsors and ﬁduciaries to costly litigation and will
discourage them from offering beneﬁt plans at all. Br.
of Appellees at 38. Penn predicts that reversal would
“give class action lawyers a free ticket to discovery and
the opportunity to demand extortionate settlements.”
Id.9 Penn’s solution is to interpret Renfro to mean that
if a plan ﬁduciary provides a “mix and range of investment options,” plaintiffs cannot plausibly allege breach
of ﬁduciary duty.

8

As well as the American Association of State Colleges and
Universities (AASCU), Association of American Universities
(AAU), Association of Community College Trustees (ACCT), Association of Public and Land Grant Universities (APLU), College
and University Professional Association for Human Resources
(CUPA-HR), Council of Independent Colleges (CIC), National Association of Independent Colleges and Universities (NAICU), and
the American Beneﬁts Council.
9
The dissent also expresses concern that reversal will overexpose university sponsors and volunteer ﬁduciaries to class action claims designed to yield large settlements and signiﬁcant
attorneys’ fees. The dissent fears that universities will be less
likely to offer beneﬁt plans and ﬁduciaries less likely to volunteer
their services. If that is the case, we should leave it to Congress
to address the possibility of a different ﬁduciary standard that is
suitable to the goal of inducing universities to offer plans and
would-be ﬁduciaries to volunteer. As it stands, ERISA ﬁduciaries
are held to one standard under § 1104 and we cannot adjust our
pleadings standards to accommodate subcategories of sponsors
and ﬁduciaries.

27a
The Supreme Court addressed a nearly identical
concern in Fifth Third Bancorp. There, the defendants
“[sought] relief from what they believe[d were] meritless, economically burdensome lawsuits.” 134 S. Ct. at
2470. The Court explained that while Congress, through
ERISA, sought to encourage creation of retirement
plans, that purpose was not intended to prevent participants with meritorious claims from gaining access
to the courts. Id. While Fifth Third concerned an ESOP
plan and defendants’ request for a presumption of prudence, its reasoning is apt here. Despite our appreciation of Penn and amici’s fear of frivolous litigation, if
we were to interpret Renfro to bar a complaint as detailed and speciﬁc as the complaint here, we would insulate from liability every ﬁduciary who, although
imprudent, initially selected a “mix and range” of investment options. Neither the statute nor our precedent justiﬁes such a rule. We will therefore reverse the
District Court’s dismissal of the claims in Counts III
and V, and remand for further proceedings.10

10

The dissent argues that we ought to afﬁrm the District
Court’s dismissal of Count V for Sweda’s want of constitutional
standing under Edmonson v. Lincoln Nat’l Life Ins. Co., 725 F.3d
406 (3d Cir. 2013). The dissent argues that because Sweda conceded that most of the underperforming options are in Tiers 3 and
4, the plaintiffs should have included information about whether
they invested in Tier 3 or Tier 4 options in the complaint. In the
dissent’s view, plaintiffs’ failure to include that information constitutes a failure to allege an injury in fact. However, while the
complaint does not identify plaintiffs’ investment options by tier,
it does contain facts that indicate that the named plaintiffs invested
in the underperforming investment options. In a paragraph

28a
We will afﬁrm dismissal of Count I because it is
time barred. Fairview Twp. v. U.S. Envtl. Prot. Agency,
773 F.2d 517, 525 n.15 (3d Cir. 1985) (we may afﬁrm on
any basis). Sweda limited her claim to the initial agreement between the Plan and TIAA-CREF to include
the CREF Stock and Money Market accounts in the
Plan, and to use TIAA-CREF for recordkeeping. This
entitled “Standing” in the complaint, Sweda included the following information:
To the extent the Plaintiffs must also show an individual injury . . . each Plaintiff has suffered such an injury, in at least the following ways . . . The named
Plaintiffs’ individual accounts in the Plan were further
harmed by Defendants’ breaches of ﬁduciary duties because one or more of the named Plaintiffs during the
proposed class period (1) invested in underperforming
options including the CREF Stock and TIAA Real Estate accounts[.]
App. 36-37. This allegation links the named plaintiffs with the
underperforming investment options and is sufﬁcient to show individual injuries.
In light of the dissent’s point on constitutional standing, we
should address the issue as it pertains to participants and beneﬁciaries who bring a civil action against ﬁduciaries under 29
U.S.C. § 1132(a)(2). The dissent cites this Court’s decision in Perelman v. Perelman, where we held that participants in a deﬁned
beneﬁt plan could not show actual injury for constitutional standing for an § 1132(a)(3) claim by pointing to a “diminution of plan
assets” because such participants are entitled to a ﬁxed periodic
payment rather than part of the asset pool. 793 F.3d 368, 374
(3d Cir. 2015). We also noted that “[t]here is no question that representative suits by plan participants or beneﬁciaries against
ﬁduciaries for breach of ﬁduciary duty are permitted by, and generally brought under, ERISA § [1132(a)(2)].” Id. at 376 n.6. This
case implicates the latter part of our observation in Perelman because Sweda brought this suit under § 1132(a)(2) on behalf of the
Plan.

29a
agreement was entered into prior to December 31,
2009, and Sweda ﬁled her initial complaint on August
10, 2016. Sweda did not present this claim as an ongoing breach like the petitioners in Tibble III, 135 S. Ct.
1823. Although we must draw every reasonable inference in Sweda’s favor, we will not read factual allegations into a complaint. Count I is therefore time barred
under the six-year statute of limitations. 29 U.S.C.
§ 1113(1).11
C. Section 1106(a)(1) claims (Counts II, IV, and VI)
1. Elements of a claim under § 1106(a)(1)
Section 1106(a) supplements the ﬁduciary duties
by speciﬁcally prohibiting certain transactions between plans and parties in interest. The elements of
a party-in-interest, prohibited transaction claim are:
(1) the ﬁduciary causes (2) a listed transaction to occur
11

No action may be commenced under this subchapter with
respect to a ﬁduciary’s breach of any responsibility, duty, or obligation under this part, or with respect to a violation of this part,
after the earlier of-(1) six years after (A) the date of the last action
which constituted a part of the breach or violation, or (B) in the case of an omission the latest
date on which the ﬁduciary could have cured the
breach or violation, or
(2) three years after the earliest date on which
the plaintiff had actual knowledge of the breach
or violation;
except that in the case of fraud or concealment, such action may
be commenced not later than six years after the date of discovery
of such breach or violation. 29 U.S.C. § 1113.

30a
(3) between the plan and a party in interest. 29 U.S.C.
§ 1106(a)(1). ERISA deﬁnes “party in interest” as “a
person providing services to such plan.” 29 U.S.C.
§ 1002(14)(B). Sweda argues that TIAA-CREF and
Vanguard are parties in interest according to the plain
language of § 1002(14)(B). She also points to a Department of Labor advisory opinion holding that a life insurance company that provided recordkeeping and
related services to a retirement plan would be a party
in interest under the statute. See DOL Advisory Opinion 2013-03A, 2013 WL 3546834. Importantly, an investment company does not become a party in interest
merely because a plan invests in securities issued by
the investment company. 29 U.S.C. § 1002(21)(B).
Fiduciaries are prohibited from causing a plan to
engage in the transactions listed at § 1106(a)(1). Those
transactions are:
(A) sale or exchange, or leasing, of any property between the plan and a party in interest;
(B) lending of money or other extension of
credit between the plan and a party in interest; (C) furnishing of goods, services, or facilities between the plan and a party in interest;
(D) transfer to, or use by or for the beneﬁt of a
party in interest, of any assets of the plan; or
(E) acquisition, on behalf of the plan, of any
employer security or employer real property
in violation of section 1107(a) of this title.
Between the deﬁnition of service providers as parties
in interest, id. § 1002(14)(B), and this exhaustive list
of prohibited transactions, § 1106(a)(1) could be read to

31a
have an extremely broad application. Some courts have
embraced that breadth and interpreted § 1106(a)(1) to
prohibit almost any transaction with a party in interest. The Seventh Circuit, for example, has held that
§ 1106(a)(1) creates a per se rule against party in interest transactions, so that plaintiffs who allege such
transactions may do so without even pleading unreasonableness of fees. Allen v. GreatBanc Trust Co., 835
F.3d 670, 676 (7th Cir. 2016). In Allen, the Seventh
Circuit ruled that the exemptions from prohibited
transactions, under 29 U.S.C. § 1108, are afﬁrmative
defenses, and that “plaintiff[s] ha[ve] no duty to negate
any or all of them” in a complaint. Id. It also noted
that ﬁve other circuits (the Second, Fourth, Fifth,
Eighth, and Ninth) have ruled similarly. Id. See
Braden, 588 F.3d at 600-01 (plaintiff did not have
to plead facts “raising a plausible inference that the
payments were unreasonable” because exemption in
§ 1108 is a defense raised by defendant). Responding
to concerns about a ﬂood of prohibited transaction claims, the Seventh Circuit reasoned that Rule 11
sanctions and reasonable risk aversion would prevent
the ﬂoodgates from opening. Allen, 835 F.3d at 677.
We decline to read § 1106(a)(1) as the Seventh Circuit does because it is improbable that § 1106(a)(1),
which was designed to prevent “transactions deemed
likely to injure the . . . plan” and “self-dealing,” Nat’l
Sec. Sys., Inc., 700 F.3d at 92 (citation and internal
quotation marks omitted), would prohibit ubiquitous
service transactions and require a ﬁduciary to plead
reasonableness as an afﬁrmative defense under § 1108

32a
to avoid suit. Not even Sweda advocates for such a
broad reading of § 1106(a)(1), conceding in her complaint that “paying for recordkeeping with asset-based
revenue sharing is not [a] per se violation of ERISA.”
Am. Compl. ¶101. One of the reasons we do not ﬁnd
Allen persuasive is that the transactions the Seventh
Circuit scrutinized in Allen were a far cry from the ordinary service arrangements at issue here. In Allen, an
ESOP ﬁduciary bought the employer’s stock using a
loan ﬁnanced by the principal shareholders of the company. The value of the stock then fell so drastically that
“[t]he Plan’s participants, all employees of [the company], wound up being on the hook for interest payments on the loan.” Allen, 835 F.3d at 673. A transaction
of that variety is far removed from ordinary recordkeeping arrangements. Therefore, Allen does not provide sufﬁcient justiﬁcation to recognize a per se rule
that every furnishing of goods or services between a
plan and party in interest is a prohibited transaction
under § 1106(a)(1).
Our ruling today does not conﬂict with our earlier
decisions holding that transactions between a plan and
plan ﬁduciaries are per se prohibited under § 1106(b).
See Cutaiar, 590 F.2d at 528; see also Nat’l Sec. Sys.,
Inc., 700 F.3d at 94. In Cutaiar, we held that “[w]hen
identical trustees of two employee beneﬁt plans whose
participants and beneﬁciaries are not identical effect a
loan between the plans without a [§ 1108] exemption,
a per se violation of ERISA exists” under § 1106(b)(2).
590 F.2d at 529. In National Security Systems, we held
that a transaction between a plan and ﬁduciary that

33a
is tainted by self-dealing is a per se violation of
§ 1106(b)(3) “regardless of the reasonableness of compensation.” 700 F.3d at 93. Those cases do not control
here because § 1106(a) and (b) have distinct purposes:
“[s]ubsection (a) erects a categorical bar to transactions between the plan and a ‘party in interest’ deemed
likely to injure the plan,” and “[s]ubsection (b) prohibits plan ﬁduciaries from entering into transactions
with the plan tainted by conﬂict-of-interest and selfdealing concerns.” Id. at 82. The protective function of
ERISA is at its height in the latter scenario when there
is a risk of ﬁduciary self-dealing. The instances where
participants might beneﬁt from a transaction between
a plan and a ﬁduciary are so rare that they can be prohibited outright.
Reading § 1106(a)(1) as a per se rule barring all
transactions between a plan and party in interest
would miss the balance that Congress struck in ERISA,
because it would expose ﬁduciaries to liability for every
transaction whereby services are rendered to the plan.
See Renfro, 671 F.3d at 321 (“In enacting ERISA, Congress ‘resolved innumerable disputes between powerful competing interests—not all in favor of potential
plaintiffs.’ ” (quoting Mertens v. Hewitt Assocs., 508
U.S. 248, 262 (1993))). Additionally, if we interpreted
§ 1106(a)(1) to prohibit every transaction for services
to a plan, we would have to ignore other parts of the
statute. For instance, ERISA speciﬁcally acknowledges
that certain services are necessary to administer
plans. See 29 U.S.C. § 1104(a)(1)(A)(ii). Interpreting
§ 1106(a)(1) to prohibit necessary services would be

34a
absurd, and when one interpretation of a statute leads
to an absurd result, we may consider an alternative interpretation that avoids the absurdity. Thorpe v. Borough of Jim Thorpe, 770 F.3d 255, 263 (3d Cir. 2014)
(quoting First Merchants Acceptance Corp. v. J.C. Bradford & Co., 198 F.3d 394, 402 (3d Cir. 1999)). Therefore
we decline to interpret § 1106(a)(1) as prohibiting per
se the “furnishing of goods [or] services,” 29 U.S.C.
§ 1106(a)(1)(C), by all “person[s] providing services to
[the] plan,” id. § 1002(14)(B).12
The Supreme Court similarly avoided absurdity in
its interpretation of § 1106(a)(1) in Lockheed Corp. (addressing whether the administrator of a plan could
condition payment on performance by participants).
The Court held that payments of beneﬁts to a participant, which under a hyper-literal reading of the statute could be understood as “a transfer to, or use by or
for the beneﬁt of a party in interest, of any assets of
the plan,” 29 U.S.C. § 1106(a)(1)(D), was not a prohibited transaction. Lockheed Corp., 517 U.S. at 892-93.
The Supreme Court rejected the hyper-literal reading
because it would have been absurd and illogical in
the context of the statute. Id. The Court went through
the subsections of § 1106(a)(1), listing the different
12

Moreover, § 1106(a) was not designed to prevent negotiation between unafﬁliated parties. See Lockheed Corp. v. Spink,
517 U.S. 882, 893 (1996). Thus, if a service provider has no prior
relationship with a plan before entering a service agreement, the
service provider is not a party in interest at the time of the agreement. As explained herein, it only becomes a party in interest after the initial transaction occurs, and subsequent transactions
are not prohibited absent self-dealing or disloyal conduct.

35a
statutorily prohibited transactions, and explained that
they follow a common thread: they are all “commercial
bargains that present a special risk of plan underfunding because they are struck with plan insiders, presumably not at arm’s length.” Id. at 893. The Court
distinguished payment of plan beneﬁts because they
“cannot reasonably be said to share that characteristic.” Id.
We have interpreted § 1106(a)(1)(D) similarly,
holding that a violation occurs when: (1) a ﬁduciary,
(2) causes a plan to engage in a transaction, (3) that
uses plan assets, (4) for the beneﬁt of a party in interest, and (5) “the ﬁduciary ‘knows or should know’ that
elements three and four are satisﬁed.” Reich v. Compton, 57 F.3d 270, 278 (3d Cir. 1995). In Reich, we held
that speciﬁc intent is required because of the plain
meaning of the statutory phrase “for the beneﬁt,” and
also because if § 1106(a)(1)(D) did not require “subjective intent to beneﬁt a party in interest, [it] would produce unreasonable consequences that we feel conﬁdent
Congress could not have wanted.” Id. at 279.
The Supreme Court’s identiﬁcation of the common
thread in § 1106(a)(1), a special risk to the plan from a
transaction presumably not at arm’s length—and its
determination that transactions that do not share that
common thread are permissible—as well as our interpretation of § 1106(a)(1)(D), represent a more harmonious way to interpret the prohibited transactions
listed in § 1106(a)(1) in the context of the statute as a
whole. The element of intent to beneﬁt a party in interest effects the purpose of § 1106(a)(1), which is to rout

36a
out transactions that beneﬁt such parties at the expense of participants. Section 1106(a)(1) is not meant
to impede necessary service transactions, but rather
transactions that present legitimate risks to participants and beneﬁciaries such as “securities purchases
or sales by a plan to manipulate the price of the security to the advantage of a party-in-interest.” Leigh v.
Engle, 727 F.2d 113, 127 (7th Cir. 1984) (quoting H.R.
Conf. Rep. No. 1280, 93rd Cong., 2d Sess. 308) (alteration omitted). We therefore hold that absent factual
allegations that support an element of intent to beneﬁt a party in interest, a plaintiff does not plausibly
allege that a “transaction that constitutes a direct or
indirect . . . furnishing of goods, services, or facilities
between the plan and a party in interest” prohibited by
§ 1106(a)(1)(C) has occurred. Requiring plaintiffs to allege facts supporting this element avoids absurdity in
interpreting the statute.
2. Conclusory and well-pleaded factual allegations
of prohibited transactions
The factual allegations that Sweda included in
her complaint to support her claims for prohibited
transactions overlap with the allegations supporting
her ﬁduciary breach claims. Besides the allegations recounted above, Sweda alleged that revenue sharing
was “kicked back” to TIAA-CREF for recordkeeping associated with TIAA-CREF options. Am. Compl. ¶109.
She alleged that Penn “allowed TIAA’s ﬁnancial interest to dictate the Plan’s investment selections and
recordkeeping arrangement.” Am. Compl. ¶87. She also

37a
alleged that Penn failed to act in the exclusive interest
of participants, instead “serv[ing] TIAA-CREF’s and
Vanguard’s ﬁnancial interests” with decisions such as
“allowing TIAA-CREF and Vanguard to put their proprietary investments in the Plan without scrutinizing
those providers’ ﬁnancial interest.” Am. Compl. ¶¶112,
200. These general allegations about kickbacks and
prioritizing TIAA-CREF and Vanguard’s ﬁnancial interests over the participant and beneﬁciaries’ ﬁnancial
interests are largely conclusory, but we also consider
well-pleaded factual allegations summarized at § III.B.3
that are relevant to Sweda’s prohibited transaction
claims.
3. Sweda failed to plausibly state a claim under
Counts II, IV, and VI
Looking at the totality of the allegations in the
complaint, taken as true, Connelly, 809 F.3d at 787,
Sweda failed to state a plausible claim for prohibited
transactions in Counts II, IV, and VI.
a. Count II
In Count II, Sweda alleged that a prohibited transaction occurred when Penn allowed TIAA-CREF to require inclusion of CREF Stock and Money Market
accounts among the Plan’s investment options and
agreed to TIAA-CREF recordkeeping services, pursuant to a “lock-in” agreement. Am. Compl. ¶193. Two of
Sweda’s prohibited transaction claims emanate from
this agreement: (1) that a prohibited transaction

38a
occurred at the time of the initial agreement, and (2)
that a prohibited transaction occurred every time fees
were later paid pursuant to the agreement. As to the
initial agreement, Sweda did not sufﬁciently allege
that TIAA-CREF was a party in interest at that time:
she included no allegation that TIAA-CREF was “providing services to [the] plan,” 29 U.S.C. § 1002(14)(B). Because Sweda failed to allege that TIAA-CREF was a
party in interest at the time of the “lock-in,” that element is factually unsupported, and she failed to state
a claim for the ﬁrst alleged prohibited transaction in
Count II. Sweda’s second claim in Count II that prohibited transactions occurred every time property was
exchanged or services were rendered pursuant to the
“lock-in” agreement is so closely related to Count IV
(payment of recordkeeping fees) that we will address
these claims together.
b. Counts II and IV
In Counts II and IV, Sweda alleged that Penn
caused the Plan to enter prohibited transactions when
it caused the Plan to pay administrative fees to TIAACREF and Vanguard. Sweda plausibly alleged that
TIAA-CREF and Vanguard were parties in interest under § 1002(14)(B) because they provided services to the
plan at the time fees were paid, and Penn’s own Plan
materials identify TIAA-CREF and Vanguard as parties in interest. At the pleadings stage, we must assume that this well-pleaded fact is true. Next we
look to whether Penn caused the Plan to enter a prohibited transaction with TIAA-CREF or Vanguard for

39a
administrative fees. Sweda alleged that the administrative fee payments constituted prohibited transactions under § 1106(a)(1) in three ways: (1) they were
prohibited transfers of property under § 1106(a)(1)(A),
(2) they were transfers of assets under subsection (D),
and (3) they constituted furnishing of services under
subsection (C). We ﬁrst address whether Sweda plausibly alleged that administrative fee payment by revenue sharing constituted a transfer of property under
(A) or Plan assets under (D).
Sweda alleged that administrative fees were paid
by revenue sharing. Am. Compl. ¶¶ 46, 110 (Vanguard
is “compensated for recordkeeping services based on
internal revenue sharing it receives from the Vanguard Investor share class mutual funds.”). She also
alleged that investment fees were drawn from mutual
fund assets. Am. Compl. ¶44. (“Mutual fund fees are
usually expressed as a percentage of assets under
management . . . [t]he fees deducted from a mutual
fund’s assets . . . ”). Mutual fund assets are distinct
from Plan assets, because, under the statute, assets
of “a plan which invests in any security issued by an
investment company” do not “include any assets of
such investment company.” 29 U.S.C. § 1101(b)(1). See
Hecker, 556 F.3d at 584 (With support from the Department of Labor, defendants demonstrated that revenue sharing fees did not impinge plan assets because
they were drawn from the assets of mutual funds).
Therefore, Sweda did not plausibly allege that revenue
sharing involved a transfer of Plan property or assets
under § 1106(a)(1)(A) or (D), and furthermore, Sweda

40a
did not plausibly allege that Penn had subjective intent to beneﬁt a TIAA-CREF or Vanguard by a use or
transfer of Plan assets, which, under our precedent, is
required to state a claim under § 1106(a)(1)(D). Reich,
57 F.3d at 279.
Finally, we must address whether a prohibited
transaction occurred under § 1106(a)(1)(C), the prohibition of “furnishing of goods, services, or facilities
between the plan and a party in interest.” As we explained above, it is possible to read subsection (C) to
create a per se prohibited transaction rule forbidding
service arrangements between a plan and a party rendering services to the plan. However, because reading
§ 1106(a)(1)(C) to that end would be absurd, Sweda
must plead an element of intent to beneﬁt the party in
interest. After striking conclusory allegations, such as
“Defendants served TIAA-CREF’s and Vanguard’s ﬁnancial interests” (Am. Compl. ¶112) from the complaint, we do not ﬁnd that Sweda alleged facts showing
that Penn intended to beneﬁt TIAA-CREF or Vanguard. We will afﬁrm the dismissal of Sweda’s claims
for prohibited transactions under Counts II and IV.
c. Count VI
At Count VI, Sweda alleged that Penn caused the
Plan to engage in prohibited transactions when it
caused the Plan to pay investment fees to TIAA-CREF
and Vanguard. For similar reasons that Sweda did not
plausibly allege prohibited transactions in Counts II
and IV, she also failed to plausibly allege prohibited

41a
transactions in Count VI. First, Sweda did not plausibly allege that payment of investment fees constituted
a prohibited transaction under § 1106(a)(1)(A), because Sweda alleged that investment fees were drawn
from mutual fund assets, not Plan assets. Second, for
the same reason, investment fees were not plausibly
alleged to be a transfer of assets of the Plan under
§ 1106(a)(1)(D). Third, Sweda did not allege that Penn
intended to beneﬁt TIAA-CREF or Vanguard under
§ 1106(a)(1)(D), as required by our precedent. Reich, 57
F.3d at 279. Finally, as we explained above in our discussion of Counts II and IV, in order to state a claim
for prohibited transactions under § 1106(a)(1)(C), “furnishing goods, services, or facilities between the plan
and a party in interest,” a plaintiff must allege intent
to beneﬁt a party in interest. Sweda failed to do so.
Therefore, we will afﬁrm the dismissal of the claim for
prohibited transactions under Count VI.
IV.
Sweda plausibly alleged that Penn failed to conform to the high standard required of plan ﬁduciaries
under 29 U.S.C. § 1104(a)(1). However, she did not
plausibly allege that Penn caused the Plan to enter
prohibited transactions under § 1106(a)(1). We therefore will REVERSE the portion of the District Court’s
order granting the Appellees’ motion to dismiss Counts
III and V and remand for further proceedings. We will
AFFIRM the District Court’s order dismissing Counts
I, II, IV, VI, and VII.

42a
Sweda v. University of Pennsylvania,
No. 17-3244
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

ROTH, Senior Judge, concurring in part and dissenting in part:
Like many large employers, the University of
Pennsylvania maintains a retirement plan for its employees. Between 2009 and 2014, the plan’s assets increased in value by $1.6 billion, a 73% return on
investment. Despite this increase, plaintiffs have ﬁled
a putative class action, claiming that the plan’s ﬁduciaries have imprudently managed it and seeking tens
of millions of dollars of damages. Having convinced
this Court to reverse in part the District Court’s dismissal of the action, the plaintiffs will continue to pursue their remaining claims, which will be litigated
extensively, at large cost to the university. As a result,
the university is in an unenviable position, in which it
has every incentive to settle quickly to avoid (1) expensive discovery and further motion practice, (2) potential individual liability for named ﬁduciaries,1 and
(3) the prospect of damages calculations, after lengthy
litigation, with interest-inﬂated liability totals.
This pressure to settle increases with the size of
the plan, regardless of the merits of the case. Alleged
mismanagement of a $400,000 plan will expose ﬁduciaries to less liability than mismanagement of a $4 billion plan. Thus, notwithstanding the strength of the
1

Sec’y, U.S. Dep’t of Labor v. Kwasny, 853 F.3d 87, 91–92 (3d
Cir. 2017).

43a
claims, a plaintiff ’s attorney, seeking a large fee, will
target a plan that holds abundant assets. I am concerned that this is the case both here and in numerous
other lawsuits that have targeted large corporations
and universities that administer some of the largest
retirement plans in the country.2
This strategy has substantial consequences for ﬁduciaries of these plans, particularly at universities.
While the ﬁduciaries for large corporations may have
experience in dealing with potential liabilities, fiduciaries at universities are often staff members who volunteer
to serve in these roles.3 Even though indemniﬁcation
agreements exist for these individual members, as long
as they are party to the suit they will be required to
disclose this litigation in personal ﬁnancial transactions.4 Moreover, universities, which unlike large

2

For a representative sample of cases plaintiffs’ counsel has
brought against corporations and universities respectively, see
infra notes 26–27.
3
While this suit does not name the members of the Investment Committee as defendants, and the record does not specify
the members of the Investment Committee or their roles within
the university, other suits name staff members as individual defendants. E.g., Tracey v. Mass. Inst. Of Tech., No. 16-11620, 2017
WL 4453541 (Aug. 31, 2017), adopted in part and rejected in part,
2017 WL 4478239 (Oct. 4, 2017).
4
See Cunningham v. Cornell Univ., No. 16-cv-6525, 2018 WL
1088019, at *1 (Jan. 19, 2018) (“Plaintiffs shall address why they
need to name 29 additional individuals as defendants other than
(a) they think they can; and (b) the assertion of multi-million dollar claims against these individuals who served on a committee
at their employer’s request has the tremendous power to harass
these individuals because they will be required to list the lawsuit

44a
corporations are not typically in the business of proﬁtmaking, must keep in mind, when determining how
best to proceed in litigation, that the university will be
responsible for any damages award. This reality demands that cases such as this one be carefully scrutinized in order not to permit implausible allegations to
result in a large settlement, under which a substantial
portion of the funds that are to be reimbursed to retirement plans are instead diverted to attorneys’ fees.
Ultimately, this case presents a question virtually
identical to the one addressed by this Court seven
years ago, in Renfro v. Unisys Corp.5: Does an ERISA
plan ﬁduciary acting in good faith, under the prudent
person standard, have a duty to do more than provide
a wide, reasonable, and low-cost variety of investment
options for individual plan beneﬁciaries who want to
have control over their own investment portfolio?
Plaintiffs contend that because the pleadings have
identiﬁed speciﬁc problematic funds in the mix and
range offered by defendants, the answer should be yes.
The majority agrees, holding that the administrators
of a pension plan must ensure that sophisticated investors receive the best version of each plan available.
This departs from the core principles in Renfro, set out
above, which the District Court followed faithfully. For
these reasons, I would afﬁrm in full the District Court’s
dismissal of the amended complaint.

on every auto, mortgage or student ﬁnancial aid application they
ﬁle.”).
5
671 F.3d 314, 327–28 (3d Cir. 2011).

45a
I
The Plan, as explained by the District Court, is a
deﬁned-contribution plan that offers its beneﬁciaries
four levels of involvement in their investments. The
ﬁrst tier is a “do-it-for-me” tier, where investors have
their choice between a TIAA target fund and a Vanguard target fund, which funds automatically adjust
their investment strategy with no input from the beneﬁciary, based on an expected retirement date. Tier 2
is a “help-me-do-it” tier, which allows a beneﬁciary to
select from a group of eight options and weigh them as
preferred. The third tier is a “mix-my-own” tier, which
provides a few options for each of nine types of funds.
And ﬁnally, Tier 4 is a “self-directed” tier, which provides access to the full panoply of 78 funds offered by
defendants.6
Of these 78 investment options, virtually all are
mutual funds. Over the course of the class period, the
proportion of retail-class mutual funds, as opposed to
cheaper institutional-class mutual funds, has varied.
Appellants have speciﬁcally challenged 58 of these retail-class funds as having had cheaper but otherwise
identical institutional-class analogues at some point
during the class period (Count V). Defendants note
in this connection that dozens of funds have been
switched to institutional classes over time. Plaintiffs
also challenge the method in which fees are calculated
(Count III), stating that an asset-based calculation has
6

Before October 2012, forty additional funds were included
in this tier, for a total of 118.

46a
overcompensated the record keepers and that a failure
to negotiate rebates constituted a breach of ﬁduciary
duty.
At argument, when asked about the four separate
tiers of beneﬁciary involvement, plaintiffs stated that
the funds being challenged were largely related to Tiers 3 and 4, and in a follow-up response, speciﬁcally
excluded Tier 1 from the scope of the complaint.
II
It is well established that ERISA was intended to
be a “comprehensive and reticulated” statute7 enacted
after “a decade of congressional study of the Nation’s
private employee beneﬁt system.”8 ERISA “resolved innumerable disputes between powerful competing interests—a balance between encouraging the creation
of plans and ensuring enforcement of rights under a
plan.”9 Congress intended to create a system “that is
[not] so complex that administrative costs, or litigation
expenses, unduly discourage employers from offering
[ERISA] plans in the ﬁrst place.”10 Instead, ERISA’s
7

Great-West Life & Annuity Ins. Co. v. Knudson, 534 U.S.
204, 209 (2002).
8
Santomenno ex rel. John Hancock Tr. v. John Hancock Life
Ins. Co., 768 F.3d 284, 291 (3d Cir. 2014) (quoting Mertens v.
Hewitt Assocs., 508 U.S. 248, 251 (1993)); accord Renfro v. Unisys
Corp., 671 F.3d 314, 321 (3d Cir. 2011).
9
Renfro, 671 F.3d at 321 (3d Cir. 2011) (quoting Mertens, 508
U.S. at 262).
10
Conkright v. Frommert, 559 U.S. 506, 517 (2010) (quoting
Varity Corp. v. Howe, 516 U.S. 489, 497 (1996)); see also Fifth

47a
purpose is, in part, to “assur[e] a predictable set of liabilities, under uniform standards of primary conduct
and a uniform regime of ultimate remedial orders and
awards when a violation has occurred.”11
Plaintiffs’ counsel, “one of the few ﬁrms handling
ERISA class actions such as this,”12 have brought numerous ERISA suits across the country. While these
cases were at first limited to corporate retirement plans,13
they have expanded to include several suits against
university retirement plans.14 These cases typically are

Third Bancorp. v. Dudenhoffer, 134 S. Ct. 2459, 2470 (2014)
(“Congress sought to encourage the creation of [employee stock
ownership plans].”).
11
Id. (quoting Rush Prudential HMO, Inc. v. Moran, 536
U.S. 355, 379 (2002)).
12
Beesley v. Int’l Paper Co., No. 06-CV-703, 2014 WL 375432,
at *3 (Jan. 31, 2014).
13
E.g., Renfro, 671 F.3d at 314; accord Tibble v. Edison Int’l,
831 F.3d 1262 (9th Cir. 2016); Tussey v. ABB, Inc., 746 F.3d 327
(4th Cir. 2014); Hecker v. Deere & Co., 556 F.3d 575 (7th Cir.
2009).
14
E.g., Cunningham v. Cornell Univ., No. 16-CV-6525, 2019
WL 275827 (Jan. 22, 2019) (considering class certiﬁcation motion); Divane v. Nw. Univ., No. 16-CV-8157, 2018 WL 1942649
(Apr. 25, 2018) (considering defendants’ motion to strike jury demand), appeal ﬁled (July 18, 2018); Clark v. Duke Univ., No. 16CV-1044, 2018 WL 1801946 (Apr. 13, 2018) (considering class certiﬁcation motion); Tracey v. Mass. Inst. of Tech., No. 16-11620,
2017 WL 4478239 (Oct. 4, 2017) (considering motion to dismiss);
Cates v. Trs. Of Columbia Univ., No. 16-CV-6524, 2017 WL
3724296 (Aug. 28, 2017) (considering motion to dismiss); Sacerdote v. N.Y. Univ., No. 16-cv-6284, 2017 WL 3701482 (Aug. 25,
2017) (considering motion to dismiss).

48a
not litigated to conclusion, either terminating through
settlement or a judicial ﬁnding against the plaintiffs.
Given that these cases are brought as putative
class actions, counsel is able to petition the court for
fees after a successful settlement. In cases of successful settlements, counsel, upon petition, are often
awarded one third of the settlement amount, plus expenses, from the settlement fund.15 While beneﬁts to
the plan may result from the settlement, they are substantially diluted by the fees’ calculation, even before
considering the litigation costs that the universities
shoulder through the motion to dismiss stage. Indeed,
while there is no comprehensive listing of “jumbo
plans” maintained in this country, this pattern of
bringing class actions against large funds seems to
have sustained itself and could continue as long as
more plans can be identiﬁed.
Such a result would be the opposite of “assuring a
predictable set of liabilities, under uniform standards
of primary conduct.”16 Indeed, it would not only discourage the offering of these plans, but it would also
discourage “individuals from serving as ﬁduciaries.”17
15

See, e.g., Krueger v. Ameriprise Fin., No. 11-CV-2781, 2015
WL 4246879, at *4 (July 13, 2015) (approving 33 1/3% fees and
additional costs totaling 36% of the common fund); Nolte v. Cigna
Corp., No. 07-CV-2046, 2013 WL 12242015, at *4 (Oct. 15, 2013)
(approving 33 1/3% fees and additional costs totaling 36% of the
common fund); George v. Kraft Foods Global, Inc., No. 08-CV3799, 2012 WL 13089487, at *4 (June 26, 2012) (approving 33
1/3% fees and additional costs totaling 49% of the common fund)[.]
16
Conkright, 559 U.S. at 517.
17
Id.

49a
Therefore, in enforcing the pleading standards under
Twombly and Iqbal, courts must take great care to allow only plausible, rather than possible, claims to withstand a motion to dismiss.18 While the majority takes
great care to lay out the pleading standards that govern this dispute, for the reasons stated below, I disagree that those standards have been met.
The majority cites Fifth Third Bancorp v. Dudenhoeffer19 to support discarding any concern of encouraging attorney-driven litigation, despite its “appreciation
of Penn and amici’s fear of frivolous litigation.”20 But
Fifth Third concerned an employee stock ownership
plan, under which employees invested primarily in
the stock of their employer, a plan that the majority
points out is subject to distinct duties under 29 U.S.C.
§ 1104(a).21 The defendants in that case were arguing
for a special presumption that investments in the employer’s stock would be prudent unless the employer
was in dire ﬁnancial straits.22 No such presumption is

18

To the extent that amici, including the American Council
on Education, address this point, I ﬁnd it persuasive. More importantly, I also believe that this consideration is consistent with
the holding in Renfro. The majority’s primary response to this argument of amici is that defendants’ alternative would foreclose
ERISA liability for any plan with a mix and range of options. I
will address this below. See infra Part IV.
19
134 S. Ct. 2459 (2014).
20
Maj. Op. at 25.
21
Fifth Third, 134 S. Ct. at 2463, 2467.
22
Id. at 2466.

50a
necessary here to determine under Renfro that plaintiffs’ claims were properly dismissed.
For the above reasons, I conclude that the District
Court’s analysis of this case, following Renfro, was the
correct one.
III
Turning then to a more pragmatic concern with
the pleading here, ERISA states that a civil action may
be brought “by the Secretary, or by a participant, beneﬁciary or ﬁduciary.”23 This statutory edict, however,
does not override the constitutional requirements for
standing.24 In order for a plaintiff to carry her burden
of establishing constitutional standing,25 three elements must be met: (1) an injury in fact “that is concrete and particularized and actual or imminent, as
opposed to conjectural or hypothetical”, (2) a causal
connection between that injury and the conduct so that
the injury is fairly traceable to the defendant’s action,
23

29 U.S.C. § 1132(a)(2).
Perelman v. Perelman, 793 F.3d 368, 373–74 (3d Cir. 2015).
As the majority points out, Perelman is a deﬁned-beneﬁt case
brought under 29 U.S.C. § 1132(a)(3), and a footnote in Perelman
does approve of representative suits by plan participants or beneﬁciaries under § 1132(a)(2). The issue in the instant case, however, is that we do not have sufﬁcient information about the
putative representatives to determine whether the harms they
are claiming, which do not implicate every Plan participant, have
affected them speciﬁcally.
25
“The burden of establishing standing lies with the plaintiff.” Id. at 373 (citing Berg v. Obama, 586 F.3d 234, 238 (3d Cir.
2009)).
24

51a
and (3) “it must be likely, as opposed to merely speculative, that the injury will be redressed by a favorable
decision.”26 We have held that “an ERISA beneﬁciary
suffers an injury-in-fact . . . when a defendant allegedly breaches its ﬁduciary duty, proﬁts from the
breach, and the beneﬁciary, as opposed to the plan, has
an individual right to the proﬁt.”27
Plaintiffs allege that the Plan’s use of the 58 retail-class funds that had cheaper institutional-class
analogues caused an injury in fact sufﬁcient to confer
standing for Count V. They do not, however, automatically have an individual right to the alleged lost proﬁts
simply because they are participants in the Plan
broadly. At argument, plaintiffs speciﬁcally conceded
that Tier 1 did not include any of the 58 funds challenged in Count V; plaintiffs limited their focus in
Count V to Tiers 3 and 4. Therefore, in order for plaintiffs to carry the burden of proof that they were injured
by the selection of the 58 retail-class funds, they must
plead that they were participants in Tier 3 or Tier 4.
They have not done so here.
The amended complaint does not contain facts
that link any of the named plaintiffs to any tier at any
point during the class period. While a paragraph in the
complaint is devoted to each of the six plaintiffs, each
of those paragraphs consists of three sentences. The
26

Edmonson v. Lincoln Nat’l Life Ins. Co., 725 F.3d 406, 415
(3d Cir. 2013) (quoting Lujan v. Defenders of Wildlife, 504 U.S.
555, 560 (1992)).
27
Id. at 418 (emphasis added).

52a
ﬁrst lists the plaintiff ’s name and residence, the second states the plaintiff ’s job title, and the third sentence is as follows, with changes only for gender: “She
is a participant in the Plan under 29 U.S.C. § 1002(7)
because she and her beneﬁciaries are or may become
eligible to receive beneﬁts under the Plan.”28 This averment indicates merely that plaintiffs are participants
under the deﬁnition of § 1132(a)(2). It provides no information as to which tier, or tiers, any individual
plaintiff chose for investment. Indeed, the entire record contains no direct information on this point. Plaintiffs conceded this at oral argument. The “standing”
portion of the amended complaint does imply that
plaintiffs invested in ways consistent with being in a
more active investment tier, but it does so by alleging
generally that “the named Plaintiffs and all participants in the Plan suffered ﬁnancial harm” as a result
of defendants conduct alleged in Count V.29 This cannot
be sufﬁcient.30

28

App. 39–40.
App. 36 ¶ 8(a); see, e.g., Emergency Physicians of St. Clare’s
v. United Health Care, No. 14-CV-404, 2014 WL 7404563, at *4
(D.N.J. Dec. 29, 2014) (dismissing plaintiff ’s ERISA suit due to
lack of standing under 29 U.S.C. § 1132(a)(2) as the complaint
would have required the district court to read additional implied
details into a complaint).
30
As the majority opinion states, an investor is not conﬁned
to a single tier. This does not change the fact that no information
is provided in the complaint that allows us to identify whether
any of the appellees invested in either a relevant fund or a relevant tier.
29

53a
This language in the amended complaint appears
to mirror its citation to LaRue v. DeWolff, Boberg &
Assocs. to support standing here.31 However, LaRue
does not save plaintiffs. The two situations in LaRue
that the Supreme Court held to constitute cognizable
claims under § 1132(a)(2) were instances when “a ﬁduciary breach diminishes plan assets payable to all participants and beneﬁciaries, or . . . to persons tied to
particular individual accounts.”32 The latter justiﬁcation is identical to our test above, and as counsel conceded at argument, the plan’s system of tiers included
at least one tier, Tier 1, that was not alleged to have
been affected by retail-class investments, rendering
the former justiﬁcation inapplicable. As a result, I
would afﬁrm the District Court’s dismissal of Count
V.33
If this were the only deﬁciency in plaintiffs’
amended complaint, the appropriate remedy would be
to dismiss Count V without prejudice to allow plaintiffs
an opportunity to allege sufﬁcient facts regarding the
tiers they invested in. However, for the reasons below,
I believe that dismissing Count V without prejudice
would be futile because plaintiffs have otherwise failed
to plead a claim upon which relief can be granted.34
31

552 U.S. 248 (2008).
Id. at 256 (emphasis added).
33
Count III’s allegation of excessive overall recordkeeping
fees implicates all participants and thus survives this analysis,
but it still fails for the reasons stated in Part V below.
34
“Leave to amend is properly denied if amendment would
be futile, i.e., if the proposed complaint could not ‘withstand a
32

54a
IV
In Renfro v. Unisys Corp., we evaluated a similar
complaint at the same stage in litigation, and determined that the mix and range of investment options in
the retirement plan provided by Unisys was sufﬁcient
to demonstrate that the defendants’ ﬁduciary duty had
been met.35 Despite a greater mix and range of options
in the instant case, the majority believes that the
standards that foreclosed the plaintiffs’ arguments in
Renfro do not do so here. However, a close look at the
facts indicates that plaintiffs’ arguments under both
Counts III and V are the same as, if not in fact weaker
than, in Renfro.
I will turn to Count V ﬁrst. Three fact patterns
were presented in Renfro: the facts surrounding the
Unisys plan as well as facts from two cases we considered from other circuits with opposite outcomes. In
Braden v. Wal-Mart Stores, Inc., the Eighth Circuit reversed the district court’s grant of a motion to dismiss,
as the plan at issue contained only thirteen investment
options and was alleged to be part of a kickback
scheme.36 In contrast, in Hecker v. Deere & Co., the Seventh Circuit afﬁrmed the dismissal of a complaint
against a plan with twenty-three mutual fund options
renewed motion to dismiss.’ ” City of Cambridge Retirement Sys.
v. Altisource Asset Mgmt. Corp., 908 F.3d 872, 878 (3d Cir. 2018)
(quoting Jablonski v. Pan Am. World Airways, Inc., 863 F.2d 289,
292 (3d Cir. 1988)).
35
671 F.3d 314, 325–28 (3d Cir. 2011).
36
588 F.3d 585, 589–90, 596 (8th Cir. 2009); see also Renfro,
671 F.3d at 327.

55a
and a third-party service that provided beneﬁciaries
access to hundreds more.37 The Seventh Circuit reasoned that it was implausible that this structure did
not grant beneﬁciaries sufﬁcient investment choices,
as the fees on each of these options ranged from 0.07%
to 1% across all funds.38
In Renfro, the Unisys plan included 73 distinct
investment options,39 71 of which were speciﬁcally
named in the operative complaint as having excessive
fees. Fees among the investment options in the Unisys
plan ranged from 0.1% to 1.21%. We held that since the
allegations solely contested the fees charged in the
Unisys plan, we could not “infer from what is alleged
that the process was ﬂawed,”40 and we afﬁrmed the dismissal of the excessive investment fees claim.41
In the instant case, the Plan has had a minimum
of 78 investment options during the class period, 58 of
which are speciﬁcally contested in the amended complaint. Fees among these options in the Plan range
from 0.04% to 0.87%. Despite plaintiffs’ claims that
these fees are excessive, their attempts to distinguish
Renfro boil down to the level of detail in the complaint
rather than, for example, any change in market circumstances that might render this 0.04% to 0.87%
37

556 F.3d 575, 578–79, 586 (7th Cir. 2009); see also Renfro,
671 F.3d at 326–27.
38
Hecker, 556 F.3d at 586.
39
671 F.3d at 327.
40
Renfro, 671 F.3d at 327 (quoting Braden, 588 F.3d at 596).
41
Id. at 328.

56a
range excessively high today. While the question of ﬁduciary breach does not boil down to a numerical calculation, plaintiffs do not contest that the Plan has a
greater number of investment options than the Unisys
plan and that the highest and lowest fees charged by
Plan funds are both lower than in Renfro. It is therefore difﬁcult to see, in the absence of additional allegations regarding market circumstances or ﬁduciary
misconduct, how this claim could be plausible if the
claims in Renfro were not.
The majority believes that endorsing this reasoning would allow a ﬁduciary to “avoid liability by stocking a plan with hundreds of options, even if the
majority were overpriced or underperforming.”42 This
oversimpliﬁes the analysis in Renfro, which afforded
substantial weight in its discussion of Braden to allegations of a kickback scheme.43 If coupled with other
allegations of mismanagement, a plan ﬂooded with
hundreds of options might itself be evidence of an imprudently clumsy attempt at ﬁduciary compliance or a
distraction from bad-faith dealings.
In the instant case, plaintiffs do not allege any
such schemes. Even their prohibited transaction claims,
which the majority properly dismissed, derive from an
“extremely broad” reading of 29 U.S.C. § 1106 rather
than any self-interest on the part of the ﬁduciaries.
42

Maj. Op. at 16.
See Renfro, 671 F.3d at 327 (“Unlike the pleadings in
Braden, plaintiffs have not contended there was any sort of concealed kickback scheme. . . .”).
43

57a
Without more, the Count V challenge to the Plan is
neatly circumscribed by Renfro, regardless of the level
of speciﬁcity devoted to the pleadings.44
Moreover, plaintiffs’ admission that the challenged funds are primarily offered to Tiers 3 and 4
compels this outcome. If the challenged funds were being provided in Tier 1—that is, to investors who wished
to have their investments managed for them—the selection of more expensive share classes in a large portion of the fund would be concerning. However, since
Tiers 3 and 4 attract investors who have a more sophisticated understanding of investment options and, inversely, are unlikely to attract investors who might be
easily confused by the available investments, the overall mix and range of options is not disturbed by the fact
that only the retail-class option was available for a
proportion of the funds in these tiers. The majority
stresses the importance of “Penn’s ‘conduct in arriving
at an investment decision’ ”45 but fails to mention that
twenty funds were switched from retail-class shares to
institutional-class shares between 2011 and 2016, a
shift that demonstrates that defendants, in choosing
investment options, were not deliberately ignoring the
beneﬁts of institutional-class shares.
The majority alternatively suggests that this analysis is too singularly focused on numerical performance
44

The majority’s reliance on Tibble v. Edison International,
843 F.3d 1187 (9th Cir. 2016) (“Tibble IV”), is misplaced. To the
extent that Tibble IV, a Ninth Circuit case, contradicts an opinion
of the Third Circuit in Renfro, it cannot apply in this case.
45
Maj. Op. at 21 n.7.

58a
or on allegations of misconduct. But both cannot be
true simultaneously. A plausible allegation of either
kind at the pleading stage would be sufﬁcient to defeat
a motion to dismiss, but plaintiffs here have not plausibly alleged either. I would therefore afﬁrm the District Court’s dismissal of Count V.
V
The plain text of Renfro also mandates that plaintiffs’ Count III claim regarding the method of calculating fees must fail. In rejecting a similar, albeit less
thoroughly pled, excessive fees claim, we stated that
the Renfro plaintiffs’ “allegations concerning fees are
directed exclusively to the fee structure and are limited to contentions that Unisys should have paid perparticipant fees rather than fees based on a percentage
of assets in the plan.”46 This is an exact description of
Count III, and the parallel logic is apparent between
the two complaints, even if the amended complaint
here is supplemented with more concrete numbers
than the Renfro complaint. The allegations that failed
in Renfro must fail here also.
The majority relies solely on Tussey v. ABB, Inc.47
to demonstrate that claims involving excessive recordkeeping fees can survive a motion to dismiss. This reliance is improper. The Eighth Circuit noted that
“unlike” cases like Renfro, Tussey “involve[d] signiﬁcant allegations of wrongdoing, including allegations
46
47

671 F.3d at 327.
746 F.3d 327 (8th Cir. 2014).

59a
that ABB used revenue sharing to beneﬁt ABB and Fidelity at the Plan’s expense.”48 Plaintiffs had proven,
during a bench trial, that ABB had been explicitly
warned about the excessiveness of their revenue sharing agreement and had failed to act in any way upon
that warning.49 No such facts are alleged here, and as
such, plaintiffs’ Count III claim must fail.50
VI
For these reasons, I would afﬁrm the District
Court’s dismissal of all counts of the amended complaint. I therefore respectfully dissent from the majority’s decision to reverse the District Court’s dismissal
of Counts III and V of the amended complaint.
48

Tussey, 746 F.3d at 336.
Id. (“The district court found, as a matter of fact, that the
ABB ﬁduciaries [failed to take curative steps] even after ABB’s
own outside consultant notiﬁed ABB the Plan was overpaying for
recordkeeping and might be subsidizing ABB’s other corporate
services.”).
50
To the extent the majority attempts to rely on DOL Advisory Opinion 2013-03A to support its position that revenue sharing reimbursements might be necessary to satisfy the prudent
man standard, this reliance is also misplaced. The quoted language in the advisory opinion merely opines on what a ﬁduciary
must do during revenue sharing negotiations in order to satisfy
the prudent man standard. DOL Advisory Opinion 2013-03A,
2013 WL 3546834, at *4 (“Prudence requires that a plan ﬁduciary,
prior to entering into such an arrangement, will understand the
formula, methodology and assumptions used by Principal . . . following disclosure by Principal of all relevant information pertaining to the proposed arrangement.”).
49

60a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT
OF PENNSYLVANIA
JENNIFER SWEDA et al., :
:
Plaintiffs,
:
v.
:
:
THE UNIVERSITY OF
:
PENNSYLVANIA and
:
JACK HEUER,
:
Defendants.
:

CIVIL ACTION

NO. 16-4329

ORDER
AND NOW, this 21st day of September, 2017,
upon consideration Defendants’ Motion to Dismiss for
Failure to State a Claim (Doc. No. 33), responses
thereto, oral argument, and supplemental brieﬁng, it
is hereby ORDERED that the Motion (Doc. No. 33) is
GRANTED. The Clerk of Court shall mark this case
CLOSED for all purposes, including statistics.
BY THE COURT:
S/Gene E.K. Pratter
GENE E.K. PRATTER
United States District Judge

61a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT
OF PENNSYLVANIA
JENNIFER SWEDA et al., :
:
Plaintiffs,
:
v.
:
:
THE UNIVERSITY OF
:
PENNSYLVANIA and
:
JACK HEUER,
:
Defendants.
:

CIVIL ACTION

NO. 16-4329

MEMORANDUM
PRATTER, J.

SEPTEMBER 21, 2017

A group of University of Pennsylvania Matching
Plan participants and beneﬁciaries bring this ERISA
action against the University of Pennsylvania and
Jack Heuer, Penn’s Vice President of Human Resources. The Plan participants allege that Defendants
enabled third-party service providers—here, TIAACREF and Vanguard—to collect excessive fees, increased costs by including duplicative investments in
the Plan, and retained underperforming funds in the
Plan. Plaintiffs claim this violated two provisions of
the Employee Retirement Income Security Act, 29
U.S.C. § 1001 et seq (“ERISA”). First, they claim a
breach of ﬁduciary duties, in violation of 29 U.S.C.

62a
§ 1104(a)(1) (Counts I, III, V and VII1). Second, they
claim the contracts with TIAA-CREF and Vanguard
were prohibited transactions, in violation of 29 U.S.C.
§ 1106(a)(1) (Counts II, IV and VI).
The Penn parties urge dismissal of the complaint,
arguing that the Third Circuit Court of Appeals’ decision in Renfro v. Unisys Corp., 671 F.3d 314 (3d Cir.
2011), controls and demands dismissal of the breach of
ﬁduciary duties claims (Counts I, III, and V), and that
the prohibited transaction claims (Counts II, IV, and
VI) are duplicative of the breach claims. For the following reasons, the Court grants the motion as to all
counts.
BACKGROUND2
The Plan participants bring this action, individually and as representatives of a purported class, as
beneﬁciaries in the University of Pennsylvania Matching Plan (“Plan”), against the University of Pennsylvania and its Vice President of Human Resources, for
breach of ﬁduciary duties under 29 U.S.C. § 1132(a)(2).
1

Count VII is styled as “failure to monitor ﬁduciaries” in violation of 29 U.S.C. § 1104(a)(1). Given that the plaintiffs did not
press this argument in their brieﬁngs, or dispute the defense contention that this was simply duplicative of the breach of ﬁduciary
duty claims, Count VII will be treated as incorporated into Counts
I, III, and V.
2
In a motion to dismiss, the Court “must consider only those
facts alleged in the complaint and accept all of the allegations as
true.” ALA, Inc. v. CCAIR, Inc., 29 F.3d 855, 859 (3d Cir. 1994).
The facts discussed in this Memorandum are taken as true from
the complaint and documents referenced within the complaint.

63a
They allege three main failures of the defendants.
First, they claim that the defendants breached their ﬁduciary duty by “locking in” Plan investment options
into two investment companies. Amended Complaint,
¶¶ 184-95 (hereinafter “Am. Compl.”). Second, they
claim that the administrative services and fees were
unreasonably high due to the defendants’ failure to
seek competitive bids to decrease administrative costs.
Am. Compl. ¶¶ 196-209. Third, they argue that the ﬁduciaries charged unnecessary fees while the portfolio
underperformed. Am. Compl. ¶¶ 210-28. Plaintiffs
seek to certify a class encompassing all participants
and beneﬁciaries of the Plan from August 10, 2010,
through the date of judgment, excluding the defendants. Am. Compl. ¶ 237.
I.

Defendants’ § 403(b) Program

Defendants’ § 403(b) Plan is a deﬁned contribution, individual account, employee pension beneﬁt plan
as deﬁned under 29 U.S.C. §§ 1002(2)(A) and (34) that
provides for retirement income beneﬁts for certain employees of the University of Pennsylvania. Am. Compl.
¶ 9. It is funded through deferrals of employee compensation, employer contributions, and investment performance, net of fees and expenses. Am. Compl. ¶ 11. At
the end of 2014, the Plan had $3.8 billion in net assets
and 21,412 participants, making it among the largest
0.02% of deﬁned contribution plans in the United
States based on total assets. Am. Compl. ¶ 12.

64a
There are generally two main costs associated
with investment accounts: plan administration and investment options management. Am. Compl. ¶ 35. Plan
administration includes the use of recordkeepers, entities that track the amount of each participant’s investments in various options in the plan. Recordkeepers
usually provide participants with quarterly account
statements, a website, call center, and investment education materials. Am. Compl. ¶¶ 40-41. A recordkeeper’s fee is often partially covered by “revenue
sharing” agreements. In revenue sharing arrangements, a mutual fund itself (rather than the participant) pays a portion of these expenses. The Plan at
issue here operates on a revenue sharing model. Am.
Compl. ¶ 119. The second main cost associated with investment accounts is investment options management.
Investment options differ by offering different share
classes. “Retail share” classes are geared toward small
investments, whereas “institutional share” classes are
aimed at large investments. Investment companies
hope to persuade large plans to invest in these institutional funds by charging lower fees. Am. Compl. ¶ 45.
The same way big box chains like Costco arguably can
offer savings over the local convenience store by selling
in bulk, institutional shares offer fee savings for bulk
investments.
ERISA requires each plan to have one or more
named ﬁduciaries that have the authority to operate
and administer the plan. 29 U.S.C. § 1102(a)(1). The
Plan at issue here is managed by an investment committee, designated by the Trustees of the University of

65a
Pennsylvania as a named ﬁduciary, responsible for the
“selection, monitoring, and removal of Plan investment
options and providers.” Am. Compl. ¶ 21. Jack Heuer
as the Vice President of Human Resources is also a
named ﬁduciary under the plan and designated as the
Plan Administrator responsible for “Plan-related matters” including “establishing rules and procedures for
the Plan’s operation.” Am. Compl. ¶ 23.
Employees (the beneﬁciaries, or participants, of
the plan) may opt into the Plan, but as in all § 403(b)
plans, they are limited in where they can invest. The
Plan managers determine the range of options available to the beneﬁciaries, who then choose where their
money is placed. The University of Pennsylvania, as
manager of one of the largest funds in the country, has
a diverse array of beneﬁciaries to serve, from grounds
and cleaning crews to renowned Wharton School and
Law professors, physicists, anthropologists, hockey
coaches and endless others.3 These individuals have
different goals, risk tolerances, investment acumen
and income.
To make it easier for potential investors, plan
managers divided the investment options (which
ranged between 76 and 118 options) into four tiers. Motion to Dismiss (hereinafter “Mot.”) Ex. 6.4 Tier 1 is for
3

Of course, the Court does not hazard a guess about the investment acumen or even instincts for “a good deal” of anyone on
any campus—or Court for that matter—anywhere.
4
Plaintiffs argue that this exhibit cannot properly be considered at this stage of the proceeding. Plaintiffs’ Opposition to Defendants’ Motion to Dismiss, Doc. No. 36 (hereinafter Opp.) at 13

66a
the “do it for me” investor; tier 2 is geared toward the
“help me do it” investor; tier 3 is designed for the “mix
my own” investor; and tier 4 is built for the “selfdirected” investor. Mot. Ex. 6. In each of these plans,
options are presented to the beneﬁciaries from TIAACREF and Vanguard, the two companies used in the
Plan. The options range from one option from each
company in the “do it for me” category to complete customization of available options in tier 4. Mot. Ex. 6.
Beneﬁciaries are informed that each mutual fund’s
prospectus is available online. Mot. Ex. 3. They are
given detailed statistics on each of the investment options, including 1, 5 and 10 year returns, as well as total operating expenses. Mot. Ex. 3.
Since 2010, the Plan has offered as many as 118
investment options, and as of December 31, 2014, the
Plan offered 78 options. Am. Compl. ¶ 77. Vanguard
Group, Inc. manages 48 mutual fund options (totaling
$1.3 billion) and TIAA-CREF manages the other 30 options including mutual funds and ﬁxed and variable
annuities (totaling $2.5 billion). Am. Compl. ¶¶ 77, 79.
n.12. A “court may consider an undisputedly authentic document
that a defendant attaches as an exhibit to a motion to dismiss if
the plaintiff ’s claims are based on the document.” Pension Beneﬁt
Guar Corp. v. White Consol. Indus., 998 F.2d 1192, 1196 (3d Cir.
1993). Plaintiffs do not dispute the authenticity of any exhibits
attached to the motion to dismiss, only that they are not referenced in the complaint. Exhibit 6 (the array of options given to
plan participants) was incorporated by reference in the Amended
Complaint, and therefore can properly be considered. See Am.
Compl. ¶ 132 (“Defendants provided a dizzying array of duplicative funds in the same investment style” to participants causing
“decision paralysis”).

67a
The Plan includes multiple recordkeepers; Vanguard
and TIAA-CREF each serve as the recordkeeper for
their respective offerings. Am. Compl. ¶ 78.
II.

Plaintiffs’ Claims

The Amended Complaint includes seven claims:
Breach of ﬁduciary duties for locking the Plan into the
CREF stock account and TIAA recordkeeping, in violation of 29 U.S.C. § 1104 (a)(1) (Count I); breach of ﬁduciary duties for unreasonable administrative fees, in
violation of 29 U.S.C. § 1104 (a)(1) (Count III); breach
of ﬁduciary duties for unreasonable fees in violation of
29 U.S.C. § 1104(a)(1) (Count V); and failure to monitor
ﬁduciaries (Count VII). The plaintiffs allege that these
actions also violate the “prohibited transactions”
clause of ERISA, 29 U.S.C. § 1106(a)(1) (Counts II, IV
& VI).

DISCUSSION
I.

Standard of Review

A Rule 12(b)(6) motion to dismiss tests the sufﬁciency of a complaint. Although Rule 8 of the Federal
Rules of Civil Procedure requires only “a short and
plain statement of the claim showing that the pleader
is entitled to relief,” Fed. R. Civ. P. 8(a)(2), “to ‘give the
defendant fair notice of what the . . . claim is and the
grounds upon which it rests,’ ” the plaintiff must provide “more than labels and conclusions, and a formulaic recitation of the elements of a cause of action will

68a
not do.” Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555
(2007) (citation omitted) (alteration in original).
To survive a motion to dismiss, the plaintiff must
plead “factual content that allows the court to draw the
reasonable inference that the defendant is liable for
the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009). Speciﬁcally, “[f ]actual allegations must be
enough to raise a right to relief above the speculative
level.” Twombly, 550 U.S. at 555. The question is not
whether the claimant “will ultimately prevail . . . but
whether his complaint [is] sufﬁcient to cross the federal court’s threshold.” Skinner v. Switzer, 562 U.S.
521, 530 (2011) (citation and internal quotation marks
omitted). Thus, assessment of the sufﬁciency of a complaint is “a context-dependent exercise” because
“[s]ome claims require more factual explication than
others to state a plausible claim for relief.” W. Penn Allegheny Health Sys., Inc. v. UPMC, 627 F.3d 85, 98 (3d
Cir. 2010).
In evaluating the sufﬁciency of a complaint, the
Court adheres to certain well-recognized parameters.
For one, the Court “must consider only those facts alleged in the complaint and accept all of the allegations
as true.” ALA, Inc. v. CCAIR, Inc., 29 F.3d 855, 859 (3d
Cir. 1994); see also Twombly, 550 U.S. at 555 (stating
that courts must “assum[e] that all the allegations in
the complaint are true (even if doubtful in fact)”);
Mayer v. Belichick, 605 F.3d 223, 230 (3d Cir. 2010)
(“[A] court must consider only the complaint, exhibits
attached to the complaint, matters of public record,
as well as undisputedly authentic documents if the

69a
complainant’s claims are based upon these documents”). Also, the Court must accept as true all reasonable inferences emanating from the allegations, and
view those facts and inferences in the light most favorable to the nonmoving party. See Rocks v. City of Philadelphia, 868 F.2d 644, 645 (3d Cir. 1989); see also
Revell v. Port Auth., 598 F.3d 128, 134 (3d Cir. 2010).
That admonition does not demand that the Court
ignore or discount reality. The Court “need not accept
as true unsupported conclusions and unwarranted inferences,” Doug Grant, Inc. v. Greate Bay Casino Corp.,
232 F.3d 173, 183-84 (3d Cir. 2000) (citations and internal quotation marks omitted), and “the tenet that a
court must accept as true all of the allegations contained in a complaint is inapplicable to legal conclusions. Threadbare recitals of the elements of a cause of
action, supported by mere conclusory statements, do
not sufﬁce.” Ashcroft, 556 U.S. at 678; see also Morse v.
Lower Merion Sch. Dist., 132 F.3d 902, 906 (3d Cir.
1997) (explaining that a court need not accept a plaintiff ’s “bald assertions” or “legal conclusions” (citations
omitted)). If a claim “is vulnerable to 12(b)(6) dismissal, a district court must permit a curative amendment, unless an amendment would be inequitable or
futile.” Phillips v. County of Allegheny, 515 F.3d 224,
236 (3d Cir. 2008).5
5

Plaintiffs ﬁled a complaint on August 8, 2016 (Doc. No. 1).
Following the defense’s initial motion to dismiss on October 28,
2016 (Doc. No. 25), Plaintiffs ﬁled an amended complaint on November 21, 2016 (Doc. No. 27). Defendants ﬁled a new motion to
dismiss on January 5, 2017 (Doc. No. 33) and that motion is the

70a
II.

Fiduciary Duty Under ERISA

Both sides agree that the defendants are ﬁduciaries to the plaintiffs under the Plan. ERISA imposes the
“prudent man standard of care.” 29 U.S.C. § 1104(a).
This requires the ﬁduciary to
(1) . . . discharge his duties with respect to a plan
solely in the interest of the participants and beneﬁciaries and—
(A)

for the exclusive purpose of:
(i) providing beneﬁts to participants
and their beneﬁciaries; and
(ii) defraying reasonable expenses of administering the plan;

(B) with the care, skill, prudence, and diligence under the circumstances then prevailing that a prudent man acting in a like
capacity and familiar with such matters
would use in the conduct of an enterprise of a
like character and with like aims.
29 U.S.C. § 1104(a).
“The ﬁduciary standard is ‘ﬂexible, such that the
adequacy of a ﬁduciary’s independent investigation
and ultimate investment selection is evaluated in light
of the character and aims of the particular type of plan
he serves.’ ” Renfro, 671 F.3d at 322 (quoting In re
Unisys Sav. Plan Litig. (Unisys I), 74 F.3d 420, 434 (3d
Cir. 1996)). An ERISA ﬁduciary acts prudently when it
subject of this memorandum. The parties took the offered opportunities for oral argument and supplemental brieﬁng.

71a
gives “appropriate consideration to those facts and circumstances that, given the scope of such ﬁduciary’s investment duties, the ﬁduciary knows or should know
are relevant to the . . . investment course of action involved. . . .” Renfro, 671 F.3d at 322 (quoting 29 C.F.R.
§ 2550.404a–1(b)(1)(i)). Accordingly, in evaluating a
questioned decision, courts focus upon the ﬁduciary’s
“conduct in arriving at [that] investment decision.”
Unisys I, 74 F.3d at 434.
The Supreme Court has “often noted that an
ERISA ﬁduciary’s duty is ‘derived from the common
law of trusts.’ ” Tibble v. Edison Int’l, 135 S. Ct. 1823,
1828 (2015) (quoting Central States, Southeast and
Southwest Areas Pension Fund v. Central Transport
Inc., 472 U.S. 559, 570 (1985)). “In administering the
trust the trustee may perform or fail to perform an
act that results in loss to the trust beneﬁciaries. He is
only liable when his conduct causing the loss failed to
conform to the standard of care and skill applicable to
trustees in the administration of trusts.” GEORGE
BOGERT ET AL, LAW OF TRUSTS AND TRUSTEES § 541, (3d
ed. 2009) (June 2017 Update).
“A determination of what is due care or appropriate skill depends upon the circumstances of time and
place as they appeared at the time the trustee took the
action in question[, but t]here is no ﬁxed formula which
enables the court to determine what is due care under
all circumstances.” Id. In evaluating the effectiveness
of an ERISA ﬁduciary’s obligations, “the range of investment options and the characteristics of those included options—including the risk proﬁles, investment

72a
strategies, and associated fees—are highly relevant”
factors. Renfro, 671 F.3d at 327. The touchstone of an
effective ERISA deﬁned contribution plan is if it “offer[s] participants meaningful choices about how to invest their retirement savings.” Id. Such a duty to offer
choice is more pronounced in plans as large as Penn’s,
which serves a broad array of needs and desires.
III. Breach of Fiduciary Duty Claims (Counts
I, III, & V)
The issues in this case primarily rise and fall with
the inquiry of whether the defendants breached their
ﬁduciary duty to the plaintiffs, and such an inquiry
must begin with Renfro.
A. Renfro v. Unisys Corp.
In Renfro v. Unisys Corp., retirement savings plan
participants ﬁled a putative class action against their
employer for breach of ﬁduciary duty under ERISA.
671 F.3d 314 (3d Cir. 2011). The breach of duty alleged
in Renfro was similar to the case at hand. The putative
class challenged “the selection and periodic evaluation
of the Unisys deﬁned contribution plan’s mix and
range of investment options” in a § 401(k) plan. Id. at
325-26. In upholding the dismissal of the claim, the
Third Circuit Court of Appeals held that courts must
look to the “mix and range of options and . . . evaluate[ ]
the plausibility of claims challenging fund selection
against the backdrop of the reasonableness of the mix
and range of investment options.” Id. at 326. Under

73a
that framework, the Court concluded that in light of
the available options—which included 73 investments
with fees ranging from 0.10% to 1.21%—plaintiffs had
“provided nothing more than conclusory assertions” of
ﬁduciary breach and afﬁrmed dismissal of the case. Id.
at 327-28. This standard stops plan participants from
second-guessing a plan ﬁduciary’s investment decisions just because they lose money, while allowing plan
participants latitude to bring suit for improper management. It requires plaintiffs to show more than just
a single sub-optimality in a given mutual fund. Instead, they must show systemic mismanagement such
that individuals are presented with a Hobson’s choice
between a poorly-performing § 401(k) portfolio or no
§401(k) at all.
This still allows multiple avenues for plaintiffs to
challenge a breach of ﬁduciary duty. A plaintiff can allege an inadequate “mix and range of options” by alleging insufﬁcient choice, that all (or the vast majority of )
options breach the ﬁduciary duty, an insufﬁcient variety among the range of options, or a kickback scheme
where the ﬁduciaries directly beneﬁt at the expense of
plan participants. See Renfro, 671 F.3d 314 (insufﬁcient mix and range; lack of options); Hecker v. Deere &
Co., 556 F.3d 575 (7th Cir. 2009) (assuming insufﬁcient
variety among investment vehicles gives rise to a
claim); Braden v. Wal-Mart Stores, Inc., 588 F.3d 585
(8th Cir. 2009) (endorsed by the Renfro court for its
denial of dismissal due to allegations of a kickback
scheme). At the same time, it effectively discharges
Congress’ “careful balancing of the need for prompt

74a
and fair” administration “against the public interest in
encouraging the formation of employee beneﬁt plans.”
Pilot Life Ins. Co. v. Dedeaux, 481 U.S. 41, 42 (1987).
B. The Renfro Standard and § 403(b)
At issue in this case are § 403(b) tax plans, the
non-proﬁt analogue to the far more common § 401(k)
tax retirement plans used by private companies. Renfro and other similar cases have dealt with a § 401(k)
retirement plan, while the Plan here is a § 403(b) tax
advantaged retirement plan. While § 401(k) and
§ 403(b) plans have different historical roots and historical structures that demand different ﬁduciary duties for administrators, those differences have largely
eroded over time. Today, the obligation of beneﬁciaries
and ﬁduciaries in § 401(k) and § 403(b) plans are
nearly identical.
ERISA was enacted in 1974 as “the growth in size,
scope, and numbers of employee beneﬁt plans” became
“rapid and substantial,” necessitating federal intervention to create a comprehensive enforcement mechanism. 29 U.S.C. § 1001(a). As retirement systems
began to take shape in America in the late 1800s, there
were few protections for employees. “There was no federal law applicable to such plans, and under state law,
such plans were generally regarded as nonbinding expressions of the employers’ present intent to make a
future gift to aged employees.” AMERICAN BAR ADMINISTRATION, EMPLOYEE BENEFITS LAW 1-1 (3rd Ed. 2012).

75a
The modern-day understanding of retirement
plans did not begin to take shape until the income tax
legislation was enacted in 1913, forcing the government to give special status to pension plans in the Revenue Acts of 1921 and 1926. Id. at 1-4. This special
status led to patchwork legislation about how the
plans could be used and administered. Id. at 1-5. The
economic boom of post-war America created a dramatic
rise in retirement plans. Id. at 1-8. Employee beneﬁts
plans increased in size and scope as states tried to keep
pace by passing their own regulations. As companies
and unions operated increasingly across state lines,
they were forced to “deal with different and sometimes
inconsistent state laws.” Id.
By the 1960s, a national consensus arguably
formed that retirement funds needed comprehensive
regulation. Id. at 1-9. As the “inadequacy of current
minimum standards” became apparent, concerns arose
that “the soundness and stability of plans with respect
to adequate funds to pay promised beneﬁts may be endangered.” 29 U.S.C. § 1001(a). In response to these
concerns, Congress enacted ERISA in 1974 to provide
a comprehensive mechanism for regulating nationwide
tax-advantaged retirement plans. EMPLOYEE BENEFITS
LAW at 2-2. “ERISA’s detailed provisions set forth a
comprehensive civil enforcement scheme that represents a careful balancing of the need for prompt and
fair claims settlement procedures against the public
interest in encouraging the formation of employee beneﬁt plans.” Pilot Life, 481 U.S. at 42.

76a
Despite the uniform language of ERISA, coverage
“of a plan under ERISA (i.e., the labor provisions) is
unrelated to the tax status of that plan under the
Code.” EMPLOYEE BENEFITS LAW at 2-5. This is because
tax advantaged retirement plans are created and administered through the IRS under a different (more
dynamic) chapter of the U.S. Code than the one that
created ERISA. Compare 29 U.S.C. § 1001 et seq.
(ERISA) with 26 U.S.C. § 401 et seq. (tax). Over the
years, Congress has amended Chapter 26 (and the IRS
has supplemented it with regulations) such that the
tax-advantaged retirement plans we know today are a
far cry from those in place when ERISA was enacted.
See, e.g., 26 C.F.R. §§ 1, 31, 54 (2007) (promulgating
rules under the IRS regarding § 403(b) plans).
Initially, § 403(b) and § 401(k) plans differed dramatically in both scope and structure. Section 403(b)
plans initially were limited to annuity contracts
(which function like a pension, paying a ﬁxed amount
for the remainder of the person’s lifetime) and predated § 401(k) plans by nearly 20 years. See, e.g., Technical Amendments Act of 1958, Pub. L. No. 85-866,
§ 23, 72 Stat 1606 (1958) (outlining the requirements
for tax advantaged § 403(b) accounts). While still governed by ERISA, these salient differences resulted in
different management and ﬁduciary requirements,
since the duties by a ﬁduciary to an annuity contract
differs dramatically from the duties of a ﬁduciary managing mutual funds. Over the years, § 403(b) plans
have moved away from annuity offerings to offer a
range of options that are nearly identical to those

77a
offered by § 401(k) plans, such as the plan at issue
here. Today, the ﬁduciary requirements by § 403(b)
plan administrators are nearly identical to those requirements for § 401(k) administrators, especially
with respect to their duties to plan beneﬁciaries.
ERISA’s ﬁduciary duty standard does not differentiate between § 403(b) and § 401(k) plans. Rather, it deﬁnes a blanket ﬁduciary duty standard. ERISA “aims
‘to provide a uniform regulatory regime over employee
beneﬁt plans’ in order to ease administrative burdens
and reduce employers’ costs.” Nat’l Sec. Sys., Inc. v. Iola,
700 F.3d 65, 82 (3d Cir. 2012) (emphasis added) (quoting Aetna Health Inc. v. Davila, 542 U.S. 200, 208
(2004)). Because of the modern-day similarity between
the two retirement plans and the historical roots of
ERISA’s goal to create a uniform regulatory system for
retirement plans, the analysis of the ﬁduciary standards for § 403(b) and § 401(k) retirement plans must
be the same. The Renfro reasoning (and other interpretations of § 401(k) cases) therefore serve as a guiding
light for analyzing the different theories advanced by
the plaintiffs.
C. Claim I: Locking the Plan into CREF
Stock Accounts and TIAA Recordkeeping
The plaintiff ’s ﬁrst claim is that by “allowing
TIAA-CREF to mandate the inclusion of the CREF
Stock Account and Money Market Account in the Plan”
the defendants committed the plan to an “imprudent
arrangement in which certain investments had to be

78a
included and could not be removed from the plan” even
if the investments underperformed. Am. Compl. ¶ 187.
In support of this assertion, Plaintiffs point to recent
Supreme Court dicta in Tibble v. Edison Int’l, 135
S. Ct. 1823, 1829 (2015). There, the Court noted (while
addressing a statute of limitations question) that “under trust law, a ﬁduciary normally has a continuing
duty of some kind to monitor investments and remove
imprudent ones.” Id. at 1828-29. However, the Court
“express[ed] no view on the scope of respondents’ ﬁduciary duty” and remanded the case to the Ninth Circuit. Id. at 1829.
Such a quibble over Tibble’s applicability misses
the fact that, even assuming the dicta is binding, the
plaintiffs’ complaint here fails to allege conduct that
violates the Tibble principle. The only fact that the
plaintiffs have pled is that the defendants “locked in”
the Plan to TIAA-CREF. Am. Compl. ¶ 187. This,
standing alone, is insufﬁcient to create a plausible inference that this was a breach of ﬁduciary duty. Locking in rates and plans is a common practice used across
the business and personal world. Companies often offer better terms to induce customers to “lock in” for a
longer period. Cable companies offer discounts for
signing a two-year contract, landlords offer cheaper
rates for longer leases, and cell phone companies give
free phones for signing a two-year agreement. Often
times, locking in a plan for a stated period is better
for all sides because customers save money with the
discount offered by the company, and companies save
money by eliminating the costs associated with

79a
customer acquisition while having an arguably reliable income stream to rely on.
The plaintiffs’ claim that this violates the defendants’ ﬁduciary duty does not meet the plausibility
threshold. As in Twombly, the actions are at least “just
as much in line with a wide swath of rational and competitive business strategy” in the market as they are
with a ﬁduciary breach. Bell Atl. Corp. v. Twombly, 550
U.S. 544, 554 (2007).6
D. Claim III: Unreasonable Administrative
Fees
Plaintiffs next claim that Defendants allowed
TIAA-CREF and Vanguard to charge unreasonable
administrative fees in two ways: First, allowing TIAACREF and Vanguard to operate as their own recordkeepers (rather than consolidating all funds with a
singular third-party recordkeeper) supposedly increased fees. Am. Compl. ¶ 107. Second, Plaintiffs
claim that the plan administrators should have arranged a ﬂat per-person fee rather than an “assetbased” fee. Am. Compl. ¶ 99.
1. Multiple Recordkeepers
The argument that TIAA-CREF and Vanguard operated as their own recordkeepers fails in the face of
6

This Count fails to meet the requirements under Rule
12(b)(6), so the Court need not address the question of whether
the claim is time-barred under 29 U.S.C. § 1113(1).

80a
the same realities discussed above. Bundling of services is not inconsistent with lawful, free market behavior in the best interests of those involved, including
beneﬁciaries. Companies, for example, often “bundle”
phone service in with the more popular cable and internet services, even when the users do not want a land
line. In those instances, it is still a rational selfinterested action to purchase the bundle because the
other equipment is worth the price for the consumer,
even with the unnecessary or undesired product or fee.
Here, it is rational to comply with Vanguard’s requirement that they serve as recordkeeper if that is required to gain access to the desired Vanguard portfolio.
Just as the actions in Twombly were “consistent with
conspiracy, but just as much in line with a wide swath
of rational” actions, so too are the actions here—perhaps consistent with ﬁduciary breach, but also well in
line with a wide swath of other rational actions.
Twombly, 550 U.S. at 554.
But even if this were not true, the argument also
fails as a factual matter because there is a reasonable
“range of investment options with a variety of risk proﬁles and fee rates.” Renfro, 671 F.3d at 327. Here, the
fees range from 0.04% to 0.87%, markedly lower than
the 0.10% to 1.21% at issue in Renfro. Mot. at 11-12.
The plan offered 17 investment options with fees lower
than the lowest fees in Renfro (0.10%) and only one
plan above 0.57%. Mot. at 12. With such low fees, it is
not inevitable to say that recordkeeping fees were unnecessarily high, especially when there are rational
bundling reasons to allow separate recordkeepers.

81a
Even if there were cheaper options available for recordkeeping fees, ERISA mandates that ﬁduciaries consider options besides cost. Fiduciaries must balance
“providing beneﬁts to participants and their beneﬁciaries” and “defraying reasonable expenses of administering the plan.” 29 U.S.C. § 1104(a)(1). Without
plausibly pleading that these two options were not
met, a plaintiff cannot state a claim for relief.
2. Asset-Based v. Flat Fee Charges
The plaintiffs next claim that the plan administrators breached their ﬁduciary duty by allowing recordkeepers to charge “excessive asset-based” fees rather
than cheaper “per-participant fees.” Am. Compl. ¶ 108.
This is a pure question of where the burden of
recordkeeping costs should be placed—a question open
to the discretion of a reasonable plan administrator. In
ﬂat per-participant fee systems, the burden is disproportionately placed on the lower income and lower
investment individuals to subsidize higher income individuals. In the asset-based model, individuals must
pay a pro rata share based on their investments, placing the burden disproportionately on the higher income individuals. For example, in a ﬂat fee system, a
young individual with only a $10,000 balance would
pay the same as an older individual who has invested
longer with a $100,000 balance. If there is a ﬂat fee of
$44, both parties would pay the same price, but a different percentage of their total account: the young investor would pay 0.44% of her account balance, while

82a
the older investor would pay 0.044% of the account balance. However, if there is a fee of 0.08% of asset value,
the young investor pays only $8, while the older investor pays $80. In both instances, the fees collected by
the recordkeeper are the same but collected differently
among plan beneﬁciaries.
The plan administrators are ﬁduciaries to every
plan member, whether she invests $10 or $10 million.
It is not up to courts to second-guess how ﬁduciaries
allocate that cost, only that the fiduciary “discharge
his duties with respect to a plan solely in the interest
of the participants and beneﬁciaries” as a whole. 29
U.S.C. § 1104(a)(1). To the extent that this argument
claims the arrangement increased fees, it fails on the
same reasoning as above: there are lawful explanations for such an arrangement, and the plaintiffs need
something more than a claim that there may be (or
even are) cheaper options available. The plaintiffs
must show that there were no reasonable alternatives
given to plan participants to choose from, which the
plaintiffs have not pled. Cf. Renfro, 671 F.3d at 329
(holding that affording a reasonable mix of plan options to participants was sufﬁcient to meet the ﬁduciary standard).

83a
E. Claim V: Unreasonable Investment Management Fees; Unnecessary Marketing,
Distribution, Mortality and Expense Risk
Fees; and Performance Losses
The plaintiffs next claim a litany of costly
measures that they claim amount to a breach of ﬁduciary duty, including unnecessary fees, duplicative investments, retention of higher cost funds, retention of
underperforming funds, and poor performance relative
to the market. Am. Compl. ¶¶ 210-23. These claims
broadly break down into three categories: (1) unnecessary fees, (2) participant confusion, and (3) poor market performance.
1. Unnecessary fees
A variant on the argument above (that a necessary
fee arrangement could have been cheaper) the plaintiffs also point to a number of charged fees that they
claim were unnecessary or duplicative. See Am. Compl.
¶¶ 211-23. The majority of these “excessive fee” arguments fail to state a claim because the mix and range
of fee options included fees as low as 0.04%, which neither side claims is excessive. The strongest argument
advanced by the plaintiffs is that the plan contained
“retail class” shares, rather than other identical options with lower fees, known as “institutional class”
shares. Am. Compl. ¶¶ 121-30. Retail shares are generally available to regular market participants who
have small investments, while institutional shares
are only available to larger institutions with more

84a
bargaining power and larger capital pools. Am. Compl.
¶ 121; Mot. at 16-18.
The plaintiffs overstate their argument. While
some shares in the Plan are retail shares that could be
replaced with institutional shares, nearly half of the
shares (37 of 78) are already these lower-fee funds.
Mot. Ex. 3. The plaintiffs’ argument also ignores that
these institutional class shares would only be available
if signiﬁcantly more money were funneled into each of
them.7 Switching from retail to institutional shares is
not a matter of checking a different box. It requires ﬁduciaries to balance the menu of options given to plan
beneﬁciaries against the fees. Sometimes, institutional
shares are unavailable as an option because investment levels are too low in that fund. But these “institutional investment vehicles [also] come with a
drawback: lower liquidity.” Loomis v. Exelon Corp., 658
F.3d 667, 672 (7th Cir. 2011). While retail funds allow
daily transfers, where participants can withdraw
money without fees, “[i]nstitutional trusts and pools do
not offer that choice.” Id.
The plaintiffs’ argument that ﬁduciaries must
maintain a myopic focus on the singular goal of lower
fees was soundly rejected in Renfro. 671 F.3d at 327.
ERISA requires ﬁduciaries to balance “providing beneﬁts to participants” with “defraying reasonable expenses” in the plan. 29 U.S.C. § 1104(a)(1)(a). The
7

For example, the Vanguard Institutional Index Fund Institutional Shares require a $5 million minimum investment. Vanguard, VINIX Share Mutual Fund Proﬁle (2017).

85a
plaintiffs here have not pled that these reductions in
expenses could be achieved without changing the variety of beneﬁts to participants. These same considerations motivated the Seventh Circuit’s rejection of
identical “institutional versus retail” arguments.
Loomis, 658 F.3d at 671-72; Hecker, 556 F.3d at 580-81.
Plaintiffs have only pled that the failure to replace
these shares was a breach of ﬁduciary duty, which is
insufﬁcient to pass through the 12(b)(6) threshold.
2. Participant Confusion
The plaintiffs next allege that defendants “provided a dizzying array of duplicative funds in the
same investment style” leading to “ ‘decision paralysis’
for participants.” Am. Compl. ¶ 132. This assertion is
unsupported by the pleading. The plaintiffs have not
alleged any participant who was confused by the different options, an omission that on its own causes the
amended complaint to fail to state a factual basis for
the claim. Moreover, the plan administrators broke the
options down into four categories based on the participants’ investment acumen to help guide them. See generally Mot. Ex. 6. Offering 78 different choices is not an
unreasonably high number, especially with the tiered
descriptive guidance given to participants. As a practical matter, plan administrators must offer a sufﬁcient
amount of choice to participants, while not overwhelming them to the point participants cannot actually
choose. Providing 78 different investment options satisﬁes the “reasonable mix and range of investment

86a
options” required by Renfro without being unduly overwhelming. 671 F.3d at 327.
The plaintiffs’ derivative claim, namely that offering duplicative funds was unnecessary, fails as well.
On the contrary, duplicative investment options are
necessary based on the structure of the Plan. Each of
the four tiers becomes progressively more complex for
plan participants. The “do it for me” tier (tier 1) has
only one option from each of the two providers, but had
a number of different underlying mutual funds or annuities in its umbrella. Mot. Ex. 6. In contrast, the
“self-directed” plan (tier 4) allowed complete customization by participants. Mot. Ex. 6. That these tiers contained some of the same funds is unsurprising and
raises no plausible inference of a breach of ﬁduciary
duty. Indeed, if there was no overlap there could be
greater cause for criticism or frustration.
3. Poor Market Performance
Finally, the plaintiffs claim that select funds were
outperformed by the rest of the market, claiming that
60% of the Plan’s investment options “underperformed
their respective benchmarks over the previous 5-year
period.” Am. Compl. ¶ 151. To begin, there is no cause
of action in ERISA for “underperforming funds.” The
statutory text requires ﬁduciaries to discharge their
duties “with the care, skill, prudence, and diligence under the circumstances then prevailing” when they make
decisions. 29 U.S.C. § 1104(a)(1)(B). (emphasis added).
This standard requires courts to look at the actions

87a
taken by the ﬁduciary at the time that they took those
actions. See, e.g., Tussey v. ABB, Inc., 746 F.3d 327, 338
(8th Cir. 2014) (“While it is easy to pick an investment
option in retrospect (buy Apple Inc. at $7 a share in
December 2000 and short Enron Corp. at $90 a share),
selecting an investment beforehand is difﬁcult. The
Plan administrator deserves discretion to the extent
its ex ante investment choices were reasonable given
what it knew at the time”). Sophisticated investors and
rank amateurs both look to buy low and sell high and
wonder why they did not have clear enough vision to
see the path for doing so early enough to make their
fortunes. Chagrin does not inexorably become a cause
of action.
Moreover, when examined closely, the plaintiffs’
claims do not withstand scrutiny. A statistical sampling of funds would expect (all things being equal)
half of the funds to be above benchmarks and half to
be below benchmarks. Here, as opposed to what the
simplistic statistical average would show, that 38
(half ) of the 76 funds underperformed, the plaintiffs
pled that 45 investment options performed below
benchmarks. Am. Compl. ¶ 151. Such a post hoc analysis of market performance, where only 7 more funds
underperformed than would be expected, may be consistent with a breach of ﬁduciary duty, but does not
show that the plaintiffs have “nudged their claims
across the line from conceivable to plausible” and
“their complaint must be dismissed.” Twombly, 550
U.S. at 570.

88a
IV. Prohibited Transaction Claims
Plaintiffs recast the same arguments above as violating the prohibited transactions clause of ERISA,
§ 1106(a).8 This clause states that:
[A] ﬁduciary with respect to a plan shall not cause
the plan to engage in a transaction, if he knows or
should know that such transaction constitutes a
direct or indirect –
(A) sale or exchange, or leasing, of any property between the plan and a party in interest
...
(C) furnishing of goods, services, or facilities
between the plan and party in interest;
(D) transfer to, or use by or for the beneﬁt of
a party in interest, of any assets of the plan
...
29 U.S.C. § 1106(a)(1)
This prohibited transaction requirement in
ERISA imposes an additional duty on ﬁduciaries not
to engage in deals using the plan assets and a “party
in interest.” A party in interest is deﬁned as, inter alia,
“a person providing services to such plan” 29 U.S.C.
§ 1002(14)(B). The prohibited transactions provision
supplements the “foundational [ﬁduciary] obligation”
by prohibiting “plan ﬁduciaries from entering into certain transactions. Subsection (a) erects a categorical
8

Defendants also claim that the prohibited transaction
claims are time-barred. Mot. at 30. Because the “prohibited transaction” claims fail to state a claim, the Court offers no opinion as
to whether the claims were timely.

89a
bar to transactions between the plan and a ‘party in
interest’ deemed likely to injure the plan.” Nat’l Sec.
Sys., Inc. v. Iola, 700 F.3d 65, 82 (3d Cir. 2012); see also
Reich v. Compton, 57 F.3d 270, 275 (3d Cir.1995).
Congress adopted the prohibited transactions provision of ERISA “to prevent plans from engaging in certain types of transactions that had been used in the
past to beneﬁt other parties at the expense of the plans’
participants and beneﬁciaries.” Reich, 57 F.3d at 275
(quoting Commissioner of Internal Revenue v. Keystone
Consolidated Indus., 508 U.S. 152, 160 (1993)). In the
decades before ERISA, plans could “engage in transactions with related parties so long as the transactions
were ‘arms-length.’ Unfortunately, this rule was difﬁcult to police and thus ‘provided an open door for
abuses’ by plan trustees.” Id. Congress amended
ERISA “with the goal of creating a categorical bar to
certain types of transactions that were regarded as
likely to injure a plan.” Reich, 57 F.3d at 275.9
The plaintiffs seek recovery under this section of
ERISA under the theory that the contractual arrangement with TIAA-CREF and Vanguard constituted a
9

The Senate Report leading to the amendment to ERISA
provided a (non-exhaustive) list of examples of the prohibited
transactions the provision sought to stop: “lending funds without
adequate security and a reasonable rate of interest to the creator
of the plan, his family, or corporations controlled by him . . . payment of excessive salaries, purchase of property for more than an
adequate consideration, sale of property for less than an adequate
consideration, or any other transactions which result in a substantial diversion of funds to such individuals.” S.Rep. No. 93–
383 (1974), reprinted in 1974 U.S.C.C.A.N. 4890, 4903.

90a
prohibited transaction. This cannot be correct. Plaintiffs argue that paying these companies constitutes a
sale of property under § 1106(a)(1)(A), a furnishing of
services under § 1106(a)(1)(C), and a transfer of assets
in the plan under § 1106(a)(1)(D). If such an argument
were true, then any time plan administrators contracted with another party to provide services to plan
participants in exchange for money (which includes
the basic elements of retirement plans, including making mutual funds available or recordkeeping services)
it would qualify as a prohibited transaction. After all,
fees charged by these companies necessarily requires
“transfer of assets.” Plaintiffs claim this all while
maintaining that there are no per se ERISA violations
in the revenue sharing arrangement. See generally,
Am. Compl.; See also, Opp. at 34.
Perhaps Plaintiffs attempt to balance on such an
analytical tightrope because they cite no court that has
been persuaded by such a novel argument. Moreover,
the transactions at issue here were not done “to beneﬁt
other parties at the expense of the plans’ participants
and beneﬁciaries” but were simply operating expenses
necessary to operate the plan on behalf of the plan beneﬁciaries. Reich, 57 F.3d at 275. While a kickback
scheme such as that in Braden, where the ﬁduciaries
are beneﬁtting by engaging in these transactions, may
be actionable under the prohibited transactions provision, the plaintiffs must plead that there is a “subjective intent to beneﬁt a party in interest.” Id. at 279.
They have not done so here. The plaintiffs’ attempts
to shoehorn their ﬁduciary duty claims into the

91a
prohibited transaction provision simply fail as a matter of law.
CONCLUSION
For the foregoing reasons, the motion to dismiss is
granted. Counts I through VII of the complaint are dismissed pursuant to Fed. R. Civ. P. 12(b)(6) for failure to
state a claim upon which relief can be granted.
An appropriate Order follows.
BY THE COURT:
S/Gene E.K. Pratter
GENE E.K. PRATTER
United States District Judge

92a
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
--------------------------------

No. 17-3244
--------------------------------

JENNIFER SWEDA; BENJAMIN A. WIGGINS;
ROBERT L. YOUNG; FAITH PICKERING;
PUSHKAR SOHONI; REBECCA N. TONER,
individually and as representatives of a class
of participants and beneficiaries on behalf of
the University of Pennsylvania Matching Plan,
Appellants
v.
UNIVERSITY OF PENNSYLVANIA;
INVESTMENT COMMITTEE; JACK HEUER
--------------------------------

(E.D. Pa. No. 2-16-cv-04329)
--------------------------------

Present: SMITH, Chief Judge, McKEE,
AMBRO, CHAGARES, JORDAN, HARDIMAN,
GREENAWAY, JR., SHWARTZ, KRAUSE, PORTER,
MATEY, ROTH and FISHER1, Circuit Judges
--------------------------------

SUR PETITION FOR REHEARING
WITH SUGGESTION FOR REHEARING EN BANC
-------------------------------1

Judges Roth and Fisher’s votes are limited to panel rehearing only.

93a
The petition for rehearing ﬁled by Appellees, University of Pennsylvania, Investment Committee and
Jack Heuer, in the above-entitled case having been
submitted to the judges who participated in the decision of this Court and to all the other available circuit
judges of the circuit in regular active service, and no
judge who concurred in the decision having asked for
rehearing, and a majority of the judges of the circuit in
regular service not having voted for rehearing, the petition for rehearing by the panel and the Court en
Banc, is denied. Judge Jordan voted for rehearing.
BY THE COURT:
s/ D. Michael Fisher
Circuit Judge
Dated: July 19, 2019
LML/cc: All counsel of record

94a
29 U.S.C. § 1104
§ 1104. Fiduciary duties
(a)

Prudent man standard of care

(1) Subject to sections 1103(c) and (d), 1342, and
1344 of this title, a ﬁduciary shall discharge his duties
with respect to a plan solely in the interest of the participants and beneﬁciaries and-(A)

for the exclusive purpose of:
(i) providing beneﬁts to participants and
their beneﬁciaries; and
(ii) defraying reasonable expenses of administering the plan;

(B) with the care, skill, prudence, and diligence
under the circumstances then prevailing that a
prudent man acting in a like capacity and familiar
with such matters would use in the conduct of an
enterprise of a like character and with like aims;
(C) by diversifying the investments of the plan
so as to minimize the risk of large losses, unless
under the circumstances it is clearly prudent not
to do so; and
(D) in accordance with the documents and instruments governing the plan insofar as such documents and instruments are consistent with the
provisions of this subchapter and subchapter III.
(2) In the case of an eligible individual account plan
(as deﬁned in section 1107(d)(3) of this title), the diversiﬁcation requirement of paragraph (1)(C) and the prudence requirement (only to the extent that it requires

95a
diversiﬁcation) of paragraph (1)(B) is not violated by
acquisition or holding of qualifying employer real property or qualifying employer securities (as deﬁned in
section 1107(d)(4) and (5) of this title).

